i
ii
                                      TABLE OF CONTENTS

Inspector General’s Message to Congress ................................................................................ 1

TIGTA’s Highlights ..................................................................................................................... 3
   Legislative Recommendations ................................................................................................ 7

TIGTA’s Profile ...................................................................................................................... 9
    Statutory Mandate .................................................................................................................. 9
    Organizational Structure ........................................................................................................ 10
    Authorities .............................................................................................................................. 10

Promote the Economy, Efficiency, and Effectiveness of Tax Administration .................... 11
    Systems Modernization of the Internal Revenue Service ...................................................... 12
    Security of the Internal Revenue Service................................................................................ 13
    Tax Compliance Initiatives .................................................................................................... 15
    Human Capital ........................................................................................................................ 16
    Erroneous and Improper Payments ......................................................................................... 17
    Taxpayer Protection and Rights.............................................................................................. 19
    Processing Returns and Implementing Tax Law Changes During the Tax Filing Season ..... 21
    Improving Performance and Financial Data for Program and Budget Decisions .................. 23

Protect the Integrity of Tax Administration ............................................................................ 25
     Investigating in the Automated Environment ........................................................................ 27
     Employee Integrity Investigations .......................................................................................... 31
     Employee and Infrastructure Security .................................................................................... 33
     External Attempts to Corrupt Tax Administration ................................................................ 34

Advancing the Oversight of America’s Tax System ................................................................ 39
    International Tax Gap ............................................................................................................ 39
    Religious Compensatory Time ............................................................................................... 41

Congressional Testimony ............................................................................................................. 43

Awards and Special Achievements ............................................................................................ 45

Audit Statistical Reports .............................................................................................................. 49
     Reports with Questioned Costs .............................................................................................. 49
     Reports with Recommendations that Funds Be Put to Better Use ......................................... 50
     Reports with Additional Quantifiable Impact on Tax Administration .................................. 51

Investigations Statistical Reports ............................................................................................... 53
     Significant Investigative Achievements ................................................................................. 53
     Status of Closed Criminal Investigations ............................................................................... 54




                                                                         iii
        Criminal Dispositions ............................................................................................................ 54
        Administrative Dispositions on Closed TIGTA Investigations ............................................. 54

Appendices
Appendix I – Statistical Reports – Other .................................................................................. 55
    Audit Reports with Significant Unimplemented Corrective Actions .................................... 55
    Other Statistical Reports ........................................................................................................ 61

Appendix II – Audit Products ..................................................................................................... 63

Appendix III – TIGTA’s Statutory Reporting Requirements ............................................... 67

Appendix IV – Section 1203 Standards ..................................................................................... 73

Appendix V – Data Tables Provided by the Internal Revenue Service ............................... 75
    Internal Revenue Service Memorandum ................................................................................ 75
    Report of Employee Misconduct, Summary by Disposition Groups ..................................... 76
    Report of Employee Misconduct, National Summary ........................................................... 77
    Summary of Substantiated I.R.C. § 1203 Allegations Recorded in ALERTS ....................... 78

List of Abbreviations .................................................................................................................... 79




                                                                       iv
   INSPECTOR GENERAL’S
   MESSAGE TO CONGRESS




It is my pleasure to submit the Treasury Inspector General for Tax Administration’s (TIGTA)
Semiannual Report to Congress for the period October 1, 2008 to March 31, 2009. This report
highlights TIGTA’s dual responsibility of providing oversight of the Internal Revenue Service
(IRS) while protecting the integrity of the Nation’s tax administration system.

January 2009 marked the ten-year anniversary of TIGTA’s stand-up as an independent
organization. In July of 1998, Congress approved and the President signed into law the IRS
Restructuring and Reform Act (RRA 98). In January 1999, TIGTA became operational as a
newly formed Office of Inspector General with oversight authority of the IRS. Over the past
decade, TIGTA has:

         •   Issued more than 1,600 final audit reports and made more than 4,000
             recommendations to improve tax administration, 3,500 of which the IRS has taken
             action;
         •   Identified more than $25 billion in funds that could have been put to better use and
             $192 million in questioned costs;
         •   Processed more than 91,684 complaints;
         •   Opened 44,373 investigations and successfully closed more than 99 percent of
             those cases; and
         •   Provided testimony to Congress on 36 occasions.

This semiannual report is the first to reflect a full period in which the new Office of Inspections
and Evaluations (I&E) has been in existence. It is headed by the Deputy Inspector General for
Inspections and Evaluations and has a small but growing staff. To date, I&E has reported on
several key issues including, taxpayer privacy, theft at IRS facilities and inappropriate use of
compensatory time by IRS employees.

This reporting period covers one of the most difficult financial times this country has faced,
making it more imperative than ever that the IRS safeguards the resources it holds in trust for
the American people. Through it all, we at TIGTA have not neglected our statutory obligation
to effectively and efficiently oversee the programs, systems, and processes of the IRS. During
times like these, underreporting of income, tax shelters and other schemes to evade taxes
continue to grow. TIGTA is committed to continue working closely with the IRS to root out



       TIGTA Semiannual Report to Congress                                                        1
       October 1, 2008 – March 31, 2009
abuses as well as to promote and maintain the confidence of the American taxpayer in the
Federal system of tax administration.

During the timeframe covered by this report, TIGTA’s audit and investigative efforts have
recovered, protected, and identified questioned costs totaling more than $10 billion in Federal
tax revenue. This figure represents a more than $8 billion increase from the previous reporting
period. Our audit efforts have realized approximately $10 billion in protected revenue and
funds that could be put to better use. Through our investigative efforts, $54 million was
recovered from theft, embezzlement, court imposed fines, penalties and restitution. These
results are not unusual for TIGTA. In the previous reporting period, TIGTA provided an
estimated return on investment of $14 for every $1 invested in us; for this reporting period,
TIGTA’s return on investment increased to an annualized estimate of $68.84 for every $1
invested by the American taxpayer through appropriations.

We at TIGTA stand ready to meet the challenges the current economic environment poses and
remain committed to providing the essential oversight necessary to promote the efficiency,
transparency, and accountability owed to the American taxpayer. On October 3, 2008, the
Emergency Economic Stabilization Act of 2008 was enacted. In addition to the financial
protections the law provided, it created the Special Inspector General for the Troubled Asset
Relief Program (SIG TARP). TIGTA offered and was called upon by the Department of the
Treasury to assist in the stand-up of the SIG TARP. We gladly shouldered this responsibility
and our dedicated staff, with the assistance of our virtual office environment, got right to work
enabling that new oversight entity to hit the ground running.

This reporting period has been punctuated with a wide array of issues and crises facing the
Federal Government, all demonstrating an increased need for transparency and oversight. In
the throes of this economic challenge, Congress passed the American Recovery and
Reinvestment Act of 2009, which stresses the immediate need for increased oversight and
transparency throughout all levels of government. This legislation established the Recovery
Act Accountability and Transparency Board, consisting of ten Inspectors General from across
the Federal Government. TIGTA is one of the entities provided statutory membership on this
board. In this additional role, we will promote efficiencies and integrity to ensure that the
measures and appropriations enacted are carried out in the most effective means on behalf of
the American people.

Notwithstanding these increased responsibilities, we remain dedicated to our mission to provide
independent oversight of the IRS while protecting the integrity of Federal tax administration
with continued scrutiny of the critical challenges facing the IRS today and in the future.

                                               Sincerely,



                                           J. Russell George
                                           Inspector General



   2                                                     TIGTA Semiannual Report to Congress
                                                             October 1, 2008 – March 31, 2009
                        TIGTA’S HIGHLIGHTS
Examples of high profile cases from the Office of Investigations:
Randy Nowak Sentenced in Murder for Hire Plot of IRS Revenue Officer
On March 5, 2009, U.S. District Court Judge James S. Moody, Jr., imposed a sentence of 30
years imprisonment on Florida businessman Randy Nowak. He noted that, after having
listened to Nowak's recorded conversations with an undercover agent posing as a hit man, he
had concluded that Nowak had “no conscience.”

Nowak was convicted by a Federal jury in December 2008 of attempting to murder a U.S.
officer or employee and for using a facility of interstate commerce with the intent that a
murder-for-hire be committed.

According to court documents, in June 2008, Nowak, owner of RJ Nowak Enterprises, Inc., had
been looking for someone to kill an IRS employee who was auditing him because he stood to
lose $4,000,000 that he had hidden offshore.

Nowak met with an undercover Federal Bureau of Investigation (FBI) Task Force agent who
was posing as a hit man in July 2008. Nowak paid him $10,000 as a down payment to kill the
IRS Revenue Officer. Nowak also asked the undercover agent if he would be willing to burn
down the IRS's office in Lakeland.

Nowak was charged in a criminal complaint filed in July 2008 with attempting to kill an IRS
Revenue Officer who was engaged in the performance of official duties. At that time, Nowak
had an outstanding IRS liability of approximately $300,000 related to his personal income tax
obligations, and he had four years of outstanding corporate tax returns for his business that he
had not filed.

Former IRS Employee Sentenced in D.C. Tax Scam
According to a Department of Justice (DOJ) press release, and court documents and plea
agreements as cited in the release, in December 2008, former IRS employee Robert Steven was
sentenced to 46 months in prison, three years supervised release and ordered to pay $8,833,310
in restitution for receipt of stolen property and conspiracy to commit money laundering in
connection with a property tax refund scheme in which more than $48 million was stolen from
the government of the District of Columbia. Robert Steven had been employed by the IRS
since 1975. At the time of his arrest, Steven was Division Director, Modernization Information
Technology Systems.

The release stated that Robert Steven’s wife, Patricia Steven, first met Harriette Walters, a
former manager in the District of Columbia Office of Tax and Revenue, in the mid-1970s. By
the late 1980's, Harriette Walters proposed that Patricia Steven deposit a check drawn on a



       TIGTA Semiannual Report to Congress                                                         3
       October 1, 2008 – March 31, 2009
District of Columbia government bank account and made payable to Patricia Steven. Walters
explained that Steven would be allowed to keep a portion of the proceeds from the check, but
would have to return a substantial portion to Walters. In spite of knowing that Walters
obtained the check fraudulently, Patricia Steven agreed and deposited the first check.

Robert and Patricia Steven opened a business that eventually developed into a clothing design
business called “Bellarmine Design.” Bellarmine Design never grossed more than $15,000 in a
single year. From 1990 to 2007, Patricia Steven and Harriette Walters made 67 deposits of
fraudulently obtained District of Columbia government checks or cash proceeds from the
scheme into a Bellarmine Design checking account maintained by Robert Steven and Patricia
Steven. The individual checks ranged in amounts from a handful of initial deposits of more
than $4,000 each to subsequent deposits of up to $490,000. Patricia Steven also transferred at
least $344,700 to Harriette Walters.

Patricia Steven and Robert Steven transferred at least $1,709,500 of these funds into another
bank account used primarily by Robert Steven. Using these funds, Robert and Patricia Steven
purchased at least four Jaguar cars, a townhouse located in Edgewater, Maryland, and multiple
vacations to the Bahamas.

Patricia Steven was sentenced to 70 months in prison, three years supervised release and
ordered to pay $8,833,310 in restitution.

U.S. Awarded a Final Judgment Against RGI, CSM and John Rachel
According to the evidence presented at trial, in 1995 the IRS entered into a contract with a
company to repair laptop computers used by the IRS throughout the country. The contract
called for the company to charge the IRS a fixed hourly rate, plus the actual cost of parts used
in the repairs. The contractor subcontracted much of the work to RGI.

Testimony showed that RGI contracted with a third party to perform certain repairs to the IRS
laptops. Instead of billing the actual cost of the third party’s work, Rachel and RGI artificially
inflated these costs by claiming that a shell company, CSM, had actually performed this work.
When questioned about these transactions, Rachel and RGI provided the IRS with phony
invoices reflecting that the work had been done by CSM at prices much higher than was
actually charged by the true vendor. Trial testimony showed that the IRS paid an additional
$428,532 under the contract as a direct result of the fraudulently inflated invoices.

On March 16, 2009, a final judgment against RGI, CSM, and John Rachel awarded the U.S.
Government $1,285,597 in treble damages and a civil penalty of $385,000.




   4                                                     TIGTA Semiannual Report to Congress
                                                             October 1, 2008 – March 31, 2009
Examples of high profile audits from the Office of Audit:
Ensuring that Tax Practitioners and Preparers Adhere to Standards and Follow the Law
In Calendar Year 2007, the IRS processed approximately 83 million individual Federal income
tax returns prepared by paid tax return preparers. With its current processes, the IRS cannot
determine how many complaints against tax return preparers it receives, how many complaints
are worked, and the total number of multiple complaints against a specific firm or preparer.
Taxpayer complaints about tax return preparers can provide valuable information about
understanding the root causes of taxpayer problems, identify areas of noncompliance, and help
the IRS address core processes that need improvement.

The Office of Professional Responsibility (OPR) plays an important role in regulating the
conduct of licensed tax professionals who act as powers of attorney for taxpayers who might be
involved in an audit, collection issue, or appeal of an IRS determination. However, the OPR
was not aware of 160 practitioners that had been assessed tax penalties, were permanently
enjoined by a Federal Court, or had been criminally sentenced for abusive tax shelter activities
that caused loss to the Federal Government of approximately $34.9 million. These
practitioners continue to represent 9,766 taxpayers before the IRS.

Revenue Lost Due to Unassessed Failure to Pay Tax Penalties
A Failure to Pay (FTP) penalty encourages taxpayers to pay their Federal income taxes on time.
It also authorizes the IRS to charge a penalty on tax accounts when taxes are not paid when
they are due, including charging interest on the penalty until it has been paid in full. Interest is
not being fully assessed on the penalty for most accounts and is fully assessed on only some
accounts, because of the procedures used by the IRS to administer the penalty. As a result,
hundreds of millions of dollars in revenue owed to the Federal Government is lost every year
and taxpayers are not treated equitably.

Additionally, the IRS’s procedure of associating the assessment of the FTP penalty with the
issuance of an annual reminder notice is not effective. Moreover, the lack of effective
corrective action allows for continued inconsistent treatment of taxpayers.

The IRS’s Modernized e-File System Was Deployed With Known Security Vulnerabilities
The Modernized e-File (MeF) system is an IRS system that will provide a single method for
filing all IRS tax returns, information returns, forms, and schedules via the Internet. The
Modernized Tax Return Database (M-TRDB), a component of the MeF system, is the
authoritative store of accepted returns and extensions submitted through the MeF system.
Security weaknesses in the controls over system access, monitoring of system access, and
disaster recovery have continued to exist even though key phases of the MeF system and the
M-TRDB have been deployed. As a result, the IRS is jeopardizing the confidentiality,
integrity, and availability of an increasing volume of tax information for millions of taxpayers
as application phases are put into operation.




       TIGTA Semiannual Report to Congress                                                         5
       October 1, 2008 – March 31, 2009
Example of a high profile report from the Office of Inspections and
Evaluations:

International Tax Gap
The international tax gap is defined as taxes owed—but not collected on time—from a United
States person or foreign person whose cross-border transactions are subject to U.S. taxation.

The IRS has not developed an accurate and reliable estimate of the international tax gap. Non-
IRS estimates of the international tax gap range from $40 billion to $123 billion annually, but
are based on educated guesses rather than direct measurement. The IRS estimated that the
entire tax gap for Tax Year (TY) 2001 was $345 billion. However, it is doubtful that the IRS’s
tax gap estimate includes the entire international tax gap because identifying hidden income
within international activity is very difficult and time-consuming.

The IRS has no plans to comprehensively measure the international tax gap due to cost, staffing
and technical limitations that make direct measurement unfeasible. Consequently, there is less
certainty that international tax compliance resources are efficiently allocated to address
noncompliance.

Nevertheless, over the past few years, the IRS has taken action to better coordinate
international tax compliance issues. In September 2007, the Service-wide Approach to
International Tax Administration was announced. In July 2008, the Commissioner of Internal
Revenue announced that international issues are a top priority during his tenure. Additionally,
the IRS modified some organizational structures, changed processes to improve compliance,
invested in human capital and information technology, and increased cooperation and outreach
to foreign governments.




   6                                                   TIGTA Semiannual Report to Congress
                                                           October 1, 2008 – March 31, 2009
              LEGISLATIVE RECOMMENDATIONS
The Inspector General is required by law1 to review existing and proposed legislation and
regulations relating to programs and operations of the establishment for which it provides
oversight and to make recommendations in the semiannual reports to the Congress concerning
the impact of such legislation or regulations on the:

      •    Economy and efficiency in the administration of programs and operations administered
           or financed by such establishment; and the
      •    Prevention and detection of fraud and abuse in such programs and operations.

Requiring a Social Security Number for the Additional Child Tax Credit – Legislation is
needed to clarify whether refundable tax credits such as the Additional Child Tax Credit
(ACTC) may be paid to filers without a valid Social Security Number (SSN) and, if these
credits may not be paid, to provide the IRS math error authority to disallow associated claims
for the credits. IRS management agrees with this recommendation. The Individual Taxpayer
Identification Number (ITIN) is available to resident or nonresident aliens who are unable to
obtain an SSN but have a tax return filing requirement. Billions of dollars in tax credits are
provided to ITIN filers without adequate verification of eligibility. In TY 2007, more than 1.2
million (66 percent) ITIN filers received ACTC of almost $1.8 billion. This is a refundable
credit available to individuals with no tax liability. The payment of Federal funds to ITIN filers
through the ACTC is inconsistent with Federal law and policy. [Disallowance of the ACTC to
filers without a valid SSN would reduce Federal outlays by $8.9 billion over 5 years.]

Assessment of Interest on Failure to Pay Penalties – Legislation is needed to address
whether separate notices must be issued to taxpayers each time Failure to Pay (FTP) penalties
are assessed and interest is charged on the penalties. IRS management did not take a position
on this recommendation. I.R.C. § 6601(e)(2)(A) states “interest shall be imposed” on FTP
penalties from the date of notice and demand to the date of payment. The IRS currently
interprets the law to mean that no interest can be charged on FTP penalties until and unless
notice and demand is sent on the specific penalty amount. However, this interpretation has a
number of ramifications which cause significant disparities in the amount of interest charged to
taxpayers. The other possible interpretation of the law is that once a notice and demand for the
tax liability plus interest and penalty is originally sent, the taxpayer has been notified that the
penalty is running. This would provide for more consistent application of the FTP penalties
and interest. [Consistent application of the FTP penalty and interest could increase revenue
by an estimated $855 million over 5 years.]




1
    5 USC App. § 4(a)(2).

           TIGTA Semiannual Report to Congress                                                    7
           October 1, 2008 – March 31, 2009
8   TIGTA Semiannual Report to Congress
        October 1, 2008 – March 31, 2009
                             TIGTA'S PROFILE


T
        IGTA provides independent oversight of Treasury Department matters involving IRS
        activities, the IRS Oversight Board, and the IRS Office of Chief Counsel. Although
        TIGTA is placed organizationally in the Treasury Departmental Offices and reports to
the Secretary of the Treasury and to Congress, TIGTA functions independently from the
Departmental Offices and all other offices and bureaus within the Department.

TIGTA’s work is devoted to all aspects of
activity related to the Federal tax system as            Statutory Mandate
administered by the IRS. By identifying
and addressing IRS’s management
challenges, implementing the President’s        •   Protect against external attempts to
                                                    corrupt or threaten IRS employees.
management agenda and the priorities of
the Department of the Treasury, TIGTA           •   Provide policy direction and conduct,
protects the public’s confidence in the tax         supervise, and coordinate audits and
                                                    investigations related to IRS programs
system.
                                                    and operations.
TIGTA’s organizational structure is             •   Review existing and proposed
                                                    legislation and regulations related to
comprised of five functional offices: the
                                                    IRS programs and operations, and make
Office of Audit; the Office of                      recommendations concerning the
Investigations; the Office of Inspections           impact of such legislation or
and Evaluations; the Office of Chief                regulations.
Counsel; and the Office of Mission Support
                                                •   Promote economy and efficiency in the
(see chart on page 10).                             administration of tax laws.
                                                •   Prevent and detect fraud and abuse in
TIGTA conducts audits, investigations, and
                                                    IRS programs and operations.
inspections and evaluations designed to:
                                                •   Inform the Secretary of the Treasury
                                                    and Congress of problems and
   •   Promote the economy, efficiency,
                                                    deficiencies identified and of the
       and effectiveness of tax                     progress made in resolving them.
       administration; and
   •   Protect the integrity of tax
       administration.




       TIGTA Semiannual Report to Congress                                                   9
       October 1, 2008 – March 31, 2009
                              Organizational Structure

                                            Inspector General

                                             Principal Deputy
                                            Inspector General




   Deputy                       Deputy                                   Associate
                                                 Deputy
  Inspector                    Inspector                                 Inspector
                                                Inspector
 General for                  General for                               General for
                                               General for                                        Chief Counsel
Investigations                   Audit                                    Mission
                                               Inspections
                                                                          Support
                                                   and
                                               Evaluations




                                            Authorities
TIGTA has all of the authorities granted                 investigate potential criminal offenses under
under the Inspector General Act of 1978, as              the internal revenue laws. In addition, the
amended.2 TIGTA has access to tax                        IRS Restructuring and Reform Act of 1998
information in the performance of its tax                (RRA 98)3 amended the Inspector General
administration responsibilities. TIGTA also              Act of 1978 to give TIGTA statutory
has the obligation to report potential criminal          authority to carry firearms, execute and serve
violations directly to the Department of                 search and arrest warrants, serve subpoenas
Justice. TIGTA and the Commissioner of                   and summonses, and make arrests as set forth
Internal Revenue have established policies               in Section 7608(b)(2) of the Internal Revenue
and procedures delineating responsibilities to           Code (I.R.C.).




                                                         3
                                                          Public Law No. 105-206, 112 Stat. 685 (codified as
                                                         amended in scattered sections of 2 U.S.C., 5 U.S.C. app., 16
                                                         U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 I.R.C., 31
2
    5 U.S.C.A. app. 3 (West Supp. 2008).                 U.S.C. 38 U.S.C., and 49 U.S.C.).


       10                                                       TIGTA Semiannual Report to Congress
                                                                    October 1, 2008 – March 31, 2009
    PROMOTE THE ECONOMY, EFFICIENCY,
        AND EFFECTIVENESS OF TAX
            ADMINISTRATION


T
       IGTA’s Office of Audit (OA) strives to promote the economy, efficiency, and
       effectiveness of tax administration. TIGTA provides recommendations to improve
       IRS systems and operations while ensuring fair and equitable treatment of taxpayers.
TIGTA’s comprehensive, independent performance, and financial audits of IRS programs
and operations primarily address mandated reviews and high-risk challenges facing the IRS.

The IRS’s implementation of audit recommendations results in:

       •   Cost savings and increased or protected revenue;
       •   Reduction of taxpayer burden;
       •   More efficient use of resources;
       •   Protection of taxpayer privacy and security;
       •   Protection of resources/reliability of information; and
       •   Protection of taxpayer rights and entitlements.

For Fiscal Year (FY) 2009, the OA realigned its staff to enable it to continue to provide
quality audit products as well as a better perspective and assessment of the IRS’s operations
and results. This realignment will better mirror all of the IRS’s processes and provide
improved OA coverage of all of the major IRS goals and initiatives.

The OA’s structure was realigned into the following four business units:
Returns Processing and Account Services – (formerly Wage and Investment Income
Programs) focuses on activities related to the preparation and processing of tax returns and
the issuing of refunds to taxpayers.
Compliance and Enforcement Operations – (formerly Small Business and Corporate
Programs) focuses on reporting, filing, and payment compliance IRS-wide, and will
therefore include the examination (except for tax-exempt organizations), collection, and
Automated Collection System (ACS) functions for all taxpayer groups.
Management Services and Exempt Organizations – (formerly Headquarters Operations and
Exempt Organizations Programs) focuses on most of the former business unit programs
except for the Criminal Investigation (CI) Division and the Office of Professional
Responsibility (OPR) which fall within the purview of Compliance and Enforcement
Operations. In addition, this business unit will develop an OA cross-cutting strategy that
will evaluate the IRS’s overall acquisition process, from planning through final delivery of
goods and services, including whether the delivered product met the IRS’s needs.




       TIGTA Semiannual Report to Congress                                                      11
       October 1, 2008 – March 31, 2009
Security and Information Technology Services – (formerly Information Systems Programs)
focuses on the same coverage areas as the former business unit, including post-
implementation reviews of the Business Systems Modernization program.

Each year, TIGTA’s OA identifies and addresses the major management challenges facing
the IRS. The OA places audit emphasis on statutory coverage required by the RRA 98, and
areas of concern to Congress, the Secretary of the Treasury, the Commissioner of the IRS,
and other key stakeholders.

The following summaries highlight significant
audits completed in eight areas of emphasis                    Audit Emphasis Areas
during this six-month reporting period.
                                                     •   Systems Modernization of the IRS
Systems Modernization of the IRS                     •   Security of the IRS
                                                     •   Tax Compliance Initiatives
The Business Systems Modernization
                                                     •   Human Capital
(Modernization) program is a complex effort
                                                     •   Erroneous and Improper Payments
to modernize IRS technology and related
                                                     •   Taxpayer Protection and Rights
business processes. For the IRS, modernizing
                                                     •   Processing Returns and Implementing
technology has been an ongoing challenge.                Tax Law Changes During the Tax Filing
The IRS has achieved successes when the                  Season
Modernization program followed its systems           •   Improving Performance and Financial
development and management guidance. It                  Data for Program and Budget Decisions
also progressed more effectively with the
implementation of the Enterprise Services organization’s management components, and
with the development of the Information Technology Modernization Vision and Strategy
(MV&S) as a map for future development. However, the IRS and its contractors still must
overcome significant barriers to achieve the goals of the Modernization program. The IRS’s
goal of providing high-quality, efficient, and responsive information services to its operating
divisions is heavily dependent on this modernization of its core computer business systems
while maintaining the existing systems.

Implementing the Data Strategy for More Efficient and Effective System and Application
Development
The IRS is developing a Data Strategy that includes a comprehensive plan for data
collection, consolidation, storage, and distribution. The Data Strategy is a key element in
the IRS’s Modernization Program along with the Modernized e-File (MeF), Customer
                                                        Account Data Engine, and Account
  “All of the IRS’s compliance activities rely on       Management Services projects.
  data. By improving the quality and                    Successful implementation of these
  accessibility of the data, the IRS will be better     four “pillars” is essential to the
  equipped to enforce the nation’s tax laws,”           support of all tax administration
  commented J. Russell George, the Treasury             activities and is critical to the
  Inspector General for Tax Administration.             long-term success of the
                                                        Modernization Program.

  12                                                  TIGTA Semiannual Report to Congress
                                                          October 1, 2008 – March 31, 2009
To facilitate implementation of the Data Strategy, TIGTA recommended that the IRS: 1)
work with IRS senior executives to consider the priority of the Data Strategy effort to
provide the necessary funding so that it can be successfully implemented as an integral
component of the Information Technology MV&S; 2) quantify and communicate the
benefits that will be realized from implementation of the Data Strategy; and 3) develop a
method to determine the priority for IRS systems and data assets to begin following the Data
Strategy and when systems and data assets can be retired.

IRS management agreed with two of the recommendations. The Data Strategy
Implementation Program Office plans to quantify potential benefits from the Data Strategy
and develop a method to determine the priority for IRS systems and data assets to begin
following the Data Strategy. While IRS management agreed with the intent of the first
recommendation to consider the priority of the Data Strategy effort, they do not plan to
implement the recommendation because they cannot agree to fund any one project without
considering each year’s annual budget.

TIGTA understands the IRS cannot agree to fund any one project without considering the
available budget, but the IRS should place a high enough priority on the Data Strategy so
that the project is considered for a relevant portion of available funding. Without providing
the resources to secure this portion of the foundation, the Modernization effort is weakened,
potentially leading the Data Strategy to a partially completed goal.
Report Reference No. 2009-20-022

Security of the Internal Revenue Service
Each year, millions of taxpayers entrust the IRS with their sensitive financial and personal
data that are stored in and processed by IRS computer systems. The risk that taxpayers’
identities could be stolen by exploiting security weaknesses in the IRS’s computer systems
continues to increase, as does the risk that IRS computer operations could be disrupted.
Both internal factors (such as the increased connectivity of computer systems and greater
use of portable laptop computers) and external factors (such as the volatile threat
environment related to increased phishing scams and hacker activity) contribute to these
risks.

The IRS’s Modernized e-File System Was Deployed With Known Security Vulnerabilities
The MeF system is an IRS system that will provide a single method for filing all IRS tax
returns, information returns, forms,
and schedules via the Internet. The      “The IRS continues to struggle with security
Modernized Tax Return Database (M-       vulnerabilities in its modernized systems while
TRDB), a component of the MeF            at the same time trying to provide effective and
system, is the authoritative store of    efficient service to taxpayers,” commented
accepted returns and extensions          J. Russell George, the Treasury Inspector
submitted through the MeF system.        General for Tax Administration.


       TIGTA Semiannual Report to Congress                                                      13
       October 1, 2008 – March 31, 2009
Security weaknesses in the controls over system access, monitoring of system access, and
disaster recovery have continued to exist even though key phases of the MeF system and the
M-TRDB have been deployed. As a result, the IRS is jeopardizing the confidentiality,
integrity, and availability of an increasing volume of tax information for millions of
taxpayers as application phases are put into operation.

TIGTA recommended that the IRS: 1) consider all security vulnerabilities that affect the
overall security of the MeF system and the M-TRDB before approving milestone exits; 2)
provide more emphasis to the MeF project office to both prevent and resolve security
vulnerabilities identified during Enterprise Life Cycle processes; and 3) approve interim
authorities to operate when significant security control weaknesses exist in system
environments.

IRS management agreed with the recommendations and has planned corrective actions.
However, the corrective actions were focused on continuing to follow or strengthening
existing processes. TIGTA believes that the security vulnerabilities were not caused by
process deficiencies. Instead, IRS personnel did not fulfill their responsibilities for
correcting security vulnerabilities before deployment.
Report Reference No. 2009-20-026

Emergency Preparedness Planning
The IRS’s ability to protect its employees and provide taxpayers service during and after a
major disruption is dependent on the effective preparation of four integrated plans called the
Business Continuity “Suite of Plans.” However, many of the plans TIGTA reviewed were
not up to date, had not been adequately tested, and did not contain sufficient detail to be
effective. These deficiencies could affect the IRS’s ability to process 235 million tax
returns, issue $295 billion in refunds, and collect $2.7 trillion in revenue each year.

TIGTA recommended that the IRS Commissioner appoint an executive with cross-
                                                             organizational authority to
  “This big picture look at the IRS’s ability to             oversee the IRS business
  recover from a disaster like the 2006 flooding of          continuity program and serve as
  the IRS’s headquarters building or Hurricane               the chairperson of the
  Katrina in 2005 clearly shows the need for IRS             Emergency Management and
  business units to work together to develop and test        Preparedness Executive Steering
  business continuity plans,” commented J. Russell           Committee. TIGTA also
  George, the Treasury Inspector General for Tax             recommended that the IRS
  Administration.                                            Commissioner require the
                                                             executive responsible for
business continuity planning to monitor and ensure that comprehensive testing is conducted
and documented for all business continuity plans, and consider testing business continuity
plans concurrently as opposed to testing the plans separately.




  14                                                 TIGTA Semiannual Report to Congress
                                                         October 1, 2008 – March 31, 2009
IRS management agreed with the recommendations and has taken or plans to take
appropriate corrective actions.
Report Reference No. 2009-20-038

Tax Compliance Initiatives
Tax compliance initiatives include administering tax regulations, collecting the correct
amount of tax for businesses and individuals, and overseeing tax-exempt and government
entities for compliance. Increasing voluntary compliance and reducing the tax gap4 are
currently the focus of IRS initiatives. Nevertheless, the IRS is facing significant challenges
in obtaining more complete and timely data, as well as developing the methods necessary for
interpreting the data. The IRS must continue to seek accurate measures for the various
components of the tax gap and the effectiveness of the actions taken to reduce it.

The Department of the Treasury and the IRS developed a multiyear strategy for improving
compliance and reducing the tax gap. However, the strategy is dependent on overcoming
several high-risk challenges. The strategy is significantly more comprehensive and detailed
than previous efforts. The long-term success of the strategy will, in large part, be dependent
on addressing several risk factors, some of which are beyond the IRS’s control. As a result,
broader strategies and better research may be needed to determine what actions are most
effective in addressing noncompliance.

Some Large-Dollar Cases Were Not Worked Effectively
An ACS large-dollar case is one in which the taxpayer’s aggregate delinquent tax owed is
greater than or equal to $100,000 and less than $1 million. Although workload and
inventory were managed effectively, 17 (27 percent) of 62 sampled cases were either
removed from the inventory or not worked properly by employees. TIGTA estimated that
work might have been discontinued on approximately 1,001 taxpayer accounts with a
potential dollar impact of up to $209 million.

TIGTA recommended that the IRS: 1) determine how many cases might have been sent to
the Queue5 prior to meeting the general criteria, sample some of the cases to determine why
the cases were moved, and evaluate the current Business Rules and resulting programming
that automatically move cases to the Queue; 2) remind employees of the required actions on
large-dollar cases through annual training or briefings and remind managers of the
importance of reviewing the cases for these actions; and 3) determine whether it is practical
to involve ACS function managers in a case review when a non-ACS function employee
works a case assigned to the ACS inventory.


4
  The tax gap is the difference between the amount of tax that taxpayers should pay and the amount that is paid
voluntarily and on time.
5
  An automated holding file for unassigned inventory of delinquent cases for which the Collection function
does not have enough resources to immediately assign a case for contact.


         TIGTA Semiannual Report to Congress                                                                  15
         October 1, 2008 – March 31, 2009
IRS management agreed with two of the three recommendations and they plan to take
appropriate corrective actions. However, IRS management decided it is not practical or
necessary to involve ACS managers in those cases when a non-ACS function employee
works a case assigned to the ACS inventory. In addition, management disagreed with the
$209 million estimated dollar impact because dollars might continue to be collected from
cases in the Queue.

TIGTA continues to believe that the IRS should take some action to prevent/detect errors in
cases processed by non-ACS employees even though the number of cases worked by non-
ACS employees was small. In addition, the outcome measurement estimates were based on
the information available at the time of the review, and the IRS could not provide reliable
estimates or probabilities on amounts that might be collected in future years while cases
remain in the Queue.
Report Reference No. 2009-30-023

Worker Misclassification
The misclassification of employees as independent contractors is a nationwide issue
affecting millions of workers that continues to grow and contributes to the tax gap. The IRS
has taken and plans to take many positive actions to address worker misclassification.
However, it does not have an agency-wide employment tax program to coordinate the
decision-making process and efforts among its business divisions. The limited data
available indicates that the worker classification issue is growing significantly. When an
employee is misclassified, tax revenues are not reported or paid and the burden of
uncollected taxes shifts to other taxpayers.

As a result, TIGTA recommended that the IRS develop and implement an agency-wide
employment tax program to address the issue of worker classification to improve
coordination among the business divisions, improve compliance, and reduce the tax gap.
TIGTA also recommended that the IRS consider conducting a formal National Research
Program reporting compliance study to measure the impact of worker misclassification on
the employment tax gap.

IRS management agreed with the recommendations and has planned appropriate corrective
actions.
Report Reference No. 2009-30-035

Human Capital
Like many other Federal Government agencies, the IRS has experienced workforce
challenges over the past few years, including recruiting, training, and retaining employees,
as well as an increasing number of employees who are eligible to retire. In addition, the
IRS, along with other Federal Government agencies, is slowly moving toward changing pay,
classification, and performance management systems to transition to a more market-based
and performance-oriented culture.



  16                                                TIGTA Semiannual Report to Congress
                                                        October 1, 2008 – March 31, 2009
Strategic Human Capital Management
The potential loss of a large number of its most experienced technical employees within the
next several years, coupled with the continually increasing complexity of the work
performed by these employees, necessitates that the IRS conduct effective workforce
planning. However, the IRS lacks the comprehensive, agency-wide information on mission
critical employee skills it needs and does not have an agency-wide recruitment strategy.
Without agency-wide information on current employee skills or an agency-wide recruitment
strategy for attracting new employees, the IRS cannot effectively assess its workforce needs
and may not be able to provide taxpayers with high-quality service in the future.

Assessing skills and effective recruiting are key in this day and age as:

    •   The work performed by IRS employees continually requires enhanced and more
        diverse skills;
    •   Significantly more vacancies might need to be filled as baby boomers6 retire;
    •   Fewer qualified candidates are entering the workforce;
    •   Other Government agencies and private industry are competing for the same
        resources;
    •   Younger generations of employees are more mobile between jobs than employees
        have been in the past; and
    •   The IRS needs to ensure that its employees represent the diverse background of the
        public it serves.

TIGTA recommended that the IRS continue with efforts to develop a corporate process for
skills gaps assessments and a detailed plan to guide the IRS’s overall skills gaps assessment
effort. In addition, TIGTA recommended that the IRS develop an agency-wide recruitment
strategy that is tied to organizational objectives and desired outcomes.

IRS management agreed with the recommendations and has planned appropriate corrective
actions. In addition, the Commissioner of Internal Revenue established the Workforce of
Tomorrow task force to ensure that five years from now the IRS has the leadership and
workforce ready for the next 15 years.
Report Reference Nos. 2009-10-025 and 2009-10-041

Erroneous and Improper Payments
As defined by the Improper Payments Information Act of 2002,7 an improper payment is any
payment that should not have been made or that was made in an incorrect amount (including
overpayments and underpayments) under statutory, contractual, administrative, or other

6
  Baby boomers are persons born during a baby boom. The term is currently used to refer to persons born in
the U.S. between 1946 and 1964. U.S. Census Bureau, "Facts for Features" CB06 FFSE.01-2 (January 3,
2006).
7
  Pub. L. No. 107-300, 116 Stat. 2350.


        TIGTA Semiannual Report to Congress                                                                  17
        October 1, 2008 – March 31, 2009
legally applicable requirements. It includes any payment to an ineligible recipient, any
payment for an ineligible service, any duplicate payment, payments for services not
received, and any payment that does not account for credit for applicable discounts. For the
IRS, improper and erroneous payments generally involve improperly paid refunds, tax return
filing fraud, or overpayments to vendors or contractors.

Alternative Methods Needed to Stop Billions of Dollars in Erroneous Payments in the
Earned Income Tax Credit Program
The IRS has successfully developed a number of processes to identify erroneous Earned
Income Tax Credit (EITC) payments prior to issuance. However, because compliance
resources are limited and alternatives to traditional compliance methods have not been
developed, the majority of the potentially erroneous EITC claims identified continue to be
paid in error. The IRS reports $10 billion to $12 billion annually in erroneous EITC
payments.
                                         Figure 1: Growth in EITC Claimants (Tax Years 2002 - 2006)
                                    25




                                    24
                   ants(millions)




                                    23

                                                                                                      22.4
               laim




                                                                                         22.1
           ITCC




                                    22                                    21.7
          E




                                                           21.4


                                            20.9
                                    21




                                    20
                                            2002           2003           2004           2005         2006
                                                                        Tax Year




       Source: IRS EITC Fact Sheet Tax Years 2002 - 2006.


TIGTA recommended that the IRS conduct a study to identify alternative processes that will
expand the IRS’s ability to effectively and efficiently identify and adjust erroneous EITC
claims for which data
show that the taxpayer
                            “The IRS has numerous compliance priorities in addition to the
does not meet EITC
                            EITC Program, which it must balance against its limited
requirements. In
                            resources. However, this is a significant revenue loss to the
addition, TIGTA
                            Federal Government and that must be addressed. Closing the
recommended that the
                            nation’s estimated $345 billion annual Tax Gap requires taking
IRS work with the
                            steps on a number of levels,” commented J. Russell George, the
Assistant Secretary of
                            Treasury Inspector General for Tax Administration.
the Treasury for Tax
Policy to obtain the
authority necessary to implement alternative processes to adjust erroneous EITC claims.


  18                                                                        TIGTA Semiannual Report to Congress
                                                                                October 1, 2008 – March 31, 2009
IRS management agreed with the recommendations and has planned appropriate corrective
actions.
Report Reference No. 2009-40-024

New Procedures Allowed Some False Economic Stimulus Payments to Be Issued
The IRS distributed 119.2 million stimulus payments totaling $96.3 billion during 2008.
However, TIGTA identified $1.2 million in false stimulus payments and $16.3 million in
false refunds that were inappropriately issued due to reliance on new controls that did not
work effectively. Although the amount of erroneously issued stimulus payments is small in
relation to the total amount issued, TIGTA remains concerned that the existing controls pose
a risk that false refunds and stimulus payments will be erroneously issued in the future.
Allowing false stimulus payments or false refunds to be issued reduces the dollars in the
United States Treasury, which is especially critical in this current economic environment.

TIGTA recommended that the IRS: 1) extend the time to verify potentially false returns and
prevent the issuance of false refunds; 2) establish a quality review process to identify false
refunds not timely processed to or updated on the computer system used to control false
returns; and 3) seek a Chief Counsel opinion to determine whether a rebate recovery credit
calculated by the IRS requires a statutory notice of deficiency.

IRS management agreed to request a formal written opinion from its Chief Counsel. IRS
management disagreed with the other recommendations, stating that the prior manually
intensive process was replaced with an automated, streamlined process that negates the need
for manual intervention, and that it continues to monitor and take proactive steps to refine
processes to hold the refund until all issues are resolved.

In spite of the IRS’s new automated process and other freeze conditions, TIGTA identified
instances where false refunds were erroneously issued due to the expiration of the temporary
freeze within the established time periods. TIGTA also identified control weaknesses in the
CI Division’s processes. The CI Division outlined several improvements it had made to
monitor the referral process and ensure issues are timely resolved. While TIGTA believes
some of the actions taken by the CI Division could be an improvement, these actions will
not be implemented until Processing Year 2009. As a result, TIGTA cannot comment on
their effectiveness. In addition, if the IRS does not take corrective actions, the IRS will
continue to be at risk of allowing false refunds to be issued. TIGTA remains concerned that
the programmed expiration for the temporary freeze may not give the IRS sufficient time to
verify wages and refer false refunds for resolution.
Report Reference No. 2009-10-049

Taxpayer Protection and Rights
The IRS continues to place increased emphasis on tax compliance activities, such as better
identifying corporations and individuals who fail to report or do not pay what they owe.


       TIGTA Semiannual Report to Congress                                                   19
       October 1, 2008 – March 31, 2009
However, all collection efforts must be balanced against the rights of taxpayers to receive
fair and equitable treatment, both in the assessment of taxes and in all initiatives undertaken
to collect open account balances. In summary, all collection efforts must ensure that
taxpayer rights are protected.

Ensuring that Tax Practitioners and Preparers Adhere to Standards and Follow the Law
Because of the number of taxpayers they represent, tax practitioners and preparers are an
important part of tax administration. Misconduct or lack of competence by tax practitioners
and preparers affects tax compliance, revenues, and taxpayer burden.

In Calendar Year 2007, the IRS processed approximately 83 million individual Federal
income tax returns prepared by paid tax return preparers. With its current processes, the IRS
cannot determine how many complaints against tax return preparers it receives, how many
complaints are worked, and the total number of multiple complaints against a specific firm
or preparer. Taxpayer complaints about tax return preparers can provide valuable
information about understanding the root causes of taxpayer problems, identify areas of
noncompliance, and help the IRS address core processes that need improvement.

The OPR plays an important role in
regulating the conduct of licensed tax          “Paid preparers are a critical component
professionals who act as powers of attorney     and stakeholder in tax administration, but
for taxpayers who might be involved in an       there are occasions when the need arises
audit, collection issue, or appeal of an IRS    for a taxpayer to file a complaint against
determination. However, the OPR was not         preparers. The IRS’s processes for
aware of 160 practitioners that had been        receiving and processing complaints
assessed tax penalties, were permanently        about tax preparers need to be improved,”
enjoined by a Federal Court, or had been        commented J. Russell George, the
criminally sentenced for abusive tax shelter    Treasury Inspector General for Tax
activities that caused loss to the Federal      Administration.
Government of approximately $34.9
million. These practitioners continue to represent 9,766 taxpayers before the IRS.

TIGTA recommended that the IRS clarify guidance to taxpayers on IRS.gov regarding the
preparer complaint process. TIGTA also recommended that the IRS develop a form (both
Web-based and paper) specifically for tax return preparer complaints that is routed to the
correct function based on type of tax return preparer and includes the items necessary for the
IRS to appropriately evaluate the legitimacy of the complaint. In addition, once a form is
developed to ensure that sufficient information is captured about the complaint, a
database(s) or tracking system should be developed to efficiently control the complaints.

TIGTA also recommended that the OPR: 1) determine whether additional disciplinary
actions are warranted for the tax practitioners that TIGTA identified; 2) establish written
procedures for controlling and reviewing case referrals on the inventory system; and 3) work
with other IRS functions on the referrals.


  20                                                  TIGTA Semiannual Report to Congress
                                                          October 1, 2008 – March 31, 2009
IRS management agreed with all of the recommendations and has planned appropriate
corrective actions.
Report Reference Nos. 2009-10-039 and 2009-40-032

Bankruptcy Proceedings
The United States Bankruptcy Code’s automatic stay provision is designed to protect
taxpayers from collection activities while they are in bankruptcy. Nonetheless, an estimated
495 potential taxpayer rights violations occurred between October 2005 and December 2007
because the IRS filed liens while taxpayers were in bankruptcy. There were also 27,838
taxpayers at risk of having their rights violated because a bankruptcy freeze code was not
posted to their accounts in a timely manner. The bankruptcy freeze code designates that the
account is in bankruptcy status. The code is an important control component for protecting
taxpayer rights during bankruptcy proceedings by helping the IRS and its Centralized
Insolvency Operation function identify and address potential automatic stay violations.

TIGTA recommended that the IRS: 1) develop and implement guidance for the
identification and correction of potential lien stay violations when establishing bankruptcy
cases on the Automated Insolvency System; 2) improve the Centralized Insolvency
Operation function’s Weekly Inventory Reports to include aging information on taxpayers
accounts; 3) enhance efforts to resolve freeze codes that do not post to accounts by ensuring
that managers consistently work Potentially Invalid Taxpayer Identification Number reports;
and 4) evaluate the frequency, consistency, and effectiveness of team manager reviews of
the quality and timeliness of bankruptcy closing actions in future operational reviews.

IRS management agreed with the recommendations and has taken or plans to take
appropriate corrective actions.
Report Reference No. 2009-30-036

Processing Returns and Implementing Tax Law Changes During the Tax
Filing Season
Each filing season tests the IRS’s ability to implement tax law changes made by Congress.
It is during the filing season that most individuals file their income tax returns and call the
IRS with questions about specific tax laws or filing procedures. Correctly implementing tax
law changes is a continuing challenge because the IRS must identify the tax law changes;
revise the various tax forms, instructions, and publications; and reprogram the computer
systems used for processing returns. Changes to the tax laws have a major effect on how the
IRS conducts its activities, what resources are required, and how much progress can be
made on strategic goals. Congress frequently changes the tax laws; thus, some level of
change is a normal part of the IRS environment. However, certain types of changes can
significantly affect the IRS in terms of the quality and effectiveness of its service and in how
taxpayers perceive the IRS.




       TIGTA Semiannual Report to Congress                                                     21
       October 1, 2008 – March 31, 2009
Revenue Lost Due to Unassessed Failure to Pay Tax Penalties
Congress established the Failure to Pay (FTP) penalty to encourage taxpayers to pay their
Federal income taxes on time and authorized the IRS to charge this penalty on tax accounts
when taxes are not paid when due. Interest should also be charged on the penalty until it has
been paid in full. However, because of the procedures used by the IRS to administer the
penalty, interest is being fully assessed on the penalty for only some accounts, while on most
accounts it is not. As a result, hundreds of millions of dollars in revenue owed to the
Federal Government is lost every year and taxpayers are not treated equitably.

TIGTA recommended that the IRS develop and follow consistent procedures for assessing
accrued FTP penalties on a regular basis on all balance-due accounts where such an
assessment is not prohibited by statute. TIGTA also recommended that the IRS request
clarifying legislation to address whether or not separate notices must be issued to taxpayers
each time penalties are assessed and interest is charged on the penalties.

IRS management partially agreed with both of the recommendations. They reexamined
TIGTA’s sample of cases and found that, at most, 25 of the 278 cases should have received
a notice but did not. The IRS made no plans to address the second recommendation other
than to work closely with its Office of Chief Counsel to review available options.

TIGTA’s review did not focus solely on cases that should have received annual notices, but
on whether or not accrued FTP penalties had been assessed to allow for the accrual of
interest. The IRS’s procedure of associating the assessment of the FTP penalty with the
issuance of an annual reminder notice is not effective. Moreover, the lack of effective
corrective action allows for continued inconsistent treatment of taxpayers.

TIGTA is concerned with the lack of specific corrective action to address the second
recommendation and will provide a copy of the report to the Assistant Secretary of the
Treasury for Tax Policy for consideration of a legislative proposal to clarify the law. If the
law is clarified to state that the original notice and demand issued to taxpayers at the time
the FTP penalty is first assessed suffices for future assessments, the IRS should ensure that
the penalty is assessed regularly and applicable interest is charged on all taxpayer accounts.
If the law is clarified to state that a new notice must be issued each time the penalty is
assessed, then the IRS should address the selective and inconsistent manner in which the
penalty is now being assessed.
Report Reference No. 2009-30-052

Tax Returns with Individual Taxpayer Identification Numbers
The IRS issues Individual Taxpayer Identification Numbers (ITIN) to provide a unique
number for individuals who are not eligible for a Social Security Number (SSN). The ITINs
help these individuals comply with the tax laws and provide a means to efficiently process
and account for tax returns. Improvements to the ITIN Program are needed to ensure that it
is meeting its intent and that refundable credit claims are verified.



  22                                                  TIGTA Semiannual Report to Congress
                                                          October 1, 2008 – March 31, 2009
TIGTA recommended that the IRS develop processes to: 1) identify individuals who are
improperly using ITINs for work purposes and develop outreach efforts with the Social
Security Administration to address the improper use; 2) limit the automatic population
feature for ITIN tax returns; 3) ensure that accurate tax information is input into IRS systems
from both paper and electronically filed ITIN tax returns; and 4) ensure the requirements for
the Child Tax Credit and Additional Child Tax Credit (ACTC) are met on ITIN returns
claiming the credits.

TIGTA also made a legislative recommendation to clarify whether refundable tax credits
such as the ACTC may be paid to filers without an SSN and, if these credits may not be
paid, to provide the IRS math error authority to disallow associated claims for the credits.
Disallowance of the ACTC to filers without an SSN would reduce Federal outlays by $8.9
billion over 5 years.

IRS management agreed to continue to work with software companies to limit the auto-
populate feature and also agreed to work with the Department of the Treasury’s Office of
Tax Policy to consider legislation to limit claims for the ACTC to taxpayers with an SSN.
However, the IRS disagreed with the other recommendations. TIGTA does not believe that
IRS management provided adequate justification for the disagreed recommendations.
Report Reference No. 2009-40-057

Improving Performance and Financial Data for Program and Budget
Decisions
While the IRS has made some progress in this area, it lacks a comprehensive, integrated
system that provides accurate, relevant, and timely financial and operating data that
describes performance measures, productivity, and associated program costs. In addition,
the IRS cannot produce timely, accurate, and useful information needed for day-to-day
decisions, which hinders its ability to address financial management and operational issues
in order to fulfill its responsibilities. TIGTA has continued to report that various IRS
management information systems are insufficient to enable IRS management to measure
costs, determine if performance goals have been achieved, or monitor progress in achieving
program goals.

Current Practices May Be Preventing Use of the Most Advantageous Contractual
Methods for Acquiring Goods and Services
Cost-reimbursement contracts, which reimburse contractors for all their costs, represent the
highest monetary risk to the Federal
Government. TIGTA reviewed a sample of       “While the contract types we reviewed were
40 contracts, of which 33 were awarded on    not improper, these types of contracts present
a cost-reimbursement basis. The IRS’s         a greater risk of the IRS paying more for
predisposition to use cost-reimbursement     contracts than necessary,” commented
                                             J. Russell George, the Treasury Inspector
                                             General for Tax Administration.

       TIGTA Semiannual Report to Congress                                                     23
       October 1, 2008 – March 31, 2009
contracts could result in inefficient use or misuse of taxpayer funds.

TIGTA recommended that the IRS ensure Contracting Officers document contract files with
a detailed justification for awarding a cost-reimbursement contract and/or a contract that
does not use Performance-Based Acquisition methods. In addition, the IRS should establish
and implement guidance that requires members of the acquisition team to meet and
coordinate prior to writing the statement of work to ensure that the best value contract type
can be negotiated. Finally, TIGTA recommended that the IRS require the program offices
to routinely review contracts prior to exercising option years or recompeting the contracts
for follow-on work, for the possibility of converting all or portions of the contracts to less
risky contract types.

IRS management agreed with the first two recommendations and partially agreed with the
third, and they are taking or plan to take appropriate corrective actions. The IRS agreed that
contracts should be reviewed when recompeting for follow-on work to less risky contract
types, but disagreed with changing the contract type at the time of exercising an option. The
IRS does plan to look for opportunities to use firm fixed-price contracts on an ongoing basis.
Report Reference No. 2009-10-037




  24                                                  TIGTA Semiannual Report to Congress
                                                          October 1, 2008 – March 31, 2009
                PROTECT THE INTEGRITY OF
                  TAX ADMINISTRATION


T
      IGTA’s Office of Investigations (OI) has a unique statutory mandate to protect the
      revenue that funds the Federal Government. TIGTA’s work touches every citizen of
      the United States everyday, because the revenue it protects provides for the health,
safety, welfare, and common defense of every American.

TIGTA’s statutory mandate is substantially broader than that of most Offices of Inspectors
General. While all Offices of Inspectors General combat fraud, waste and abuse, TIGTA is
also statutorily charged with protecting the integrity of Federal tax administration.

To accomplish its broad mandate, OI performs a variety of functions, including:

   •   Investigating allegations of criminal violations that adversely impact Federal tax
       administration;
   •   Providing armed escorts for IRS employees in certain volatile situations;
   •   Investigating allegations of serious administrative misconduct by IRS employees;
   •   Initiating proactive work to detect criminal or administrative misconduct in the
       administration of IRS programs;
   •   Working closely with IRS employees, tax practitioners, and community groups to
       educate them about indicators of integrity problems or fraud in IRS programs;
   •   Operating an aggressive Criminal Intelligence Program to proactively identify and
       mitigate threats to IRS employees or to the continuity of IRS operations;
   •   Investigating assaults on, and threats to, IRS employees, facilities, and operations;
   •   Working proactively to identify and mitigate threats to IRS information systems;
   •   Protecting the increasingly important electronic environment in which Federal tax
       administration is conducted;
   •   Investigating fraud, waste, and abuse involving IRS procurements and contracting;
   •   Maintaining a national complaint center accessible via telephone or Internet, which
       serves as the hub for receiving and addressing complaints of fraud, waste, abuse, and
       misconduct involving IRS employees, programs, and operations;
   •   Maintaining a robust forensic science program to analyze the physical and digital
       evidence gathered during investigations;
   •   Managing the Treasury-wide land mobile radio program; and
   •   Employing specialized technical and investigative equipment, training, and
       techniques to enhance investigative outcomes.




       TIGTA Semiannual Report to Congress                                                   25
       October 1, 2008 – March 31, 2009
                    TIGTA’s Investigative Performance Model




TIGTA has employed a progressive Performance Model to focus investigative efforts on its
three primary areas of investigative responsibility: employee integrity; employee and
infrastructure security; and external attempts to corrupt Federal tax administration. Since its
introduction, the Performance Model has served both to focus TIGTA’s investigative
activities and to demonstrate the value of its investigations to external stakeholders.

Over time, the Performance Model has proven to be a far more powerful management tool
than was initially anticipated. Because the Performance Model focuses on TIGTA’s core
mission-related objectives, it has become an essential tool for gauging almost every aspect
of OI’s investigative operations. In addition to quantifying investigative productivity, the
model provides reliable statistical data which assists in the assessment of budgetary
planning, staffing decisions, and training needs.

TIGTA’s budget planning is now driven by the objective, measurable data derived from use
of the Performance Model. Special agent training needs are also identified based on data
derived from the use of the Performance Model. Imbalances in the distribution of human
capital resources are detectible by analysis of data produced by use of the Performance
Model.




  26                                                  TIGTA Semiannual Report to Congress
                                                          October 1, 2008 – March 31, 2009
The Performance Model has become an indispensable management tool as the growing body
of data collected from its use has been analyzed and transformed into information to better
inform strategic organizational decisions. For example, the use of the Performance Model
has identified the need for OI to focus greater resources on the electronic environment in
which Federal tax administration increasingly occurs, and in which new threats to IRS
operations are rapidly emerging and known threats are continually evolving.

Investigating in the Automated Environment
Complex financial fraud, unauthorized access, and/or disclosure of taxpayer information
require that TIGTA proactively identify IRS employee access anomalies and irregularities
within the IRS revenue accounting system. Recent financial frauds in the District of
Columbia city government and elsewhere are evidence of how experienced employees can
overcome even the best internal controls and avoid detection through audits.

The environment in the IRS is ripe for significant fraud and unauthorized access of taxpayer
information. The IRS plans to install 261 new records systems and make other process
changes to replace the older familiar systems. There has been a decentralizing of authority
to accommodate taxpayer service. People at lower levels can now make financial decisions
about taxpayer accounts, and 70 percent of IRS employees have access to some part of
agency revenue or budgetary accounting systems. These changes, which were made to
enhance the IRS’s cost effectiveness and improve taxpayer service, have added additional
risk to the IRS structure which had previously been quite stable.

The implications for the IRS are significant. With $2.5 trillion in revenue and 149 million
revenue accounts, there is much at risk and much to protect and oversee.

To address this risk, OI has developed a strategic plan to guide the organization toward
operating effectively in the automated environment. The OI’s vision is to develop a
professional and productive workforce with the knowledge, skills, and abilities to operate in
the ever-changing electronic/automated/technological environment. To realize this vision,
OI developed a series of strategic goals to be accomplished over time. These goals are to:

       •   Determine the specific characteristics of the electronic tax administration
           environment;
       •   Establish a program of training that specifically targets the needs of investigative
           personnel operating in an electronic tax administration environment;
       •   Establish a program of proactive investigative initiatives to identify potential
           indicators of fraudulent activity within OI’s jurisdiction; and
       •   Develop hiring and other personnel practices to enhance OI’s capability to
           conduct investigations in the current and future electronic environments.




       TIGTA Semiannual Report to Congress                                                      27
       October 1, 2008 – March 31, 2009
The OI anticipates completing its goals and being fully positioned to achieve its mission of
effectively conducting proactive and reactive investigations in the increasingly automated
environment of electronic tax administration by 2013.

The OI has already taken the first steps along the path to meet its goals. The TIGTA
Training Academy received full accreditation on November 19, 2008, from the Federal Law
Enforcement Training Accreditation Board. The OI routinely conducts training in its
internally-developed yearly continuing professional education seminars on topics relating to
conducting investigations in an automated environment. Each year, more than 300 special
agents and organization leaders receive this exceptional training.

The OI has also undertaken the development of field office special agent/analyst positions.
The special agent/analysts will review investigative data for trends and work to develop case
leads with other field office analysts and TIGTA’s Strategic Enforcement Division (SED),
whose function is the detection of fraud in IRS programs, unauthorized access to IRS
systems by internal users, and attempts to interfere with IRS computers by external sources.

The OI believes that a bottom-up approach is fundamental for the success of the
organization. Those who work in the trenches each day are best able to identify issues and
problems quickly. The OI has established a performance element that has been added to
each special agent’s evaluation plan which calls for proactive development of an initiative
area. This encourages each special agent to develop investigations on their own in areas
they have identified as problematic.

Dovetailing with these first steps to successfully conducting investigations in an automated
environment is TIGTA’s recently developed Armed Escort Program. This program, made
possible through a legislative change, provides OI the ability to further enhance its
assault/threat investigations by allowing TIGTA special agents to accompany IRS
employees in certain volatile situations. Because TIGTA’s jurisdiction encompasses threats
to IRS employees, it is very likely that a TIGTA agent has already spoken with a taxpayer
who has threatened and may assault an IRS employee. As the taxpayer will understand that
a law enforcement officer is present, it can be expected that simple “officer presence” will
be enough to discourage the taxpayer from committing a criminal act. Should simple
“officer presence” fail, TIGTA agents are fully trained in law enforcement techniques to
defuse and control hostile encounters, are armed, and may be armed with law enforcement
model shotguns and rifles. To prepare for this newly enhanced mission area, the TIGTA
Training Academy is providing training to all TIGTA special agents and leaders to further
enhance their skills necessary to conduct armed escorts.

The OI leadership recognizes the future challenges to the organization and can see over the
horizon in targeting the needs of its employees in the near and distant future. OI recognizes
that it must continue to work aggressively with a strong sense of personal accountability for
excellence and professionalism to realize its vision and accomplish its mission.



  28                                                 TIGTA Semiannual Report to Congress
                                                         October 1, 2008 – March 31, 2009
TIGTA Office of Investigations Training Program Receives Accreditation




                              TIGTA’s Training Team and Supervisors

Left to right, (back row) Special Agent Marvin Weindorff; Assistant Special Agent in Charge Michael
Radetic; Assistant Inspector General for Investigations Michael Delgado

Left to right, (front row) Management Analyst Yvette Taylor; Employee Development Specialist Kay
Arthur; and Special Agent in Charge Dedra Drayton




        TIGTA Semiannual Report to Congress                                                           29
        October 1, 2008 – March 31, 2009
         Grand Opening of the TIGTA Investigative Support Center
After years in the making, OI has opened the TIGTA Investigative Support Center. The
Center houses multiple disciplines: the Forensic Science Laboratory; the Technical and
Firearms Support Division; portions of the Strategic Enforcement Division; and the Office
of Information Technology.

The Center provides investigative support in areas such as latent fingerprint examination,
handwriting identification, computer searching and seizing, forensic examination of
electronic evidence, graphics services, radio communication, and the use of surveillance
equipment. The Center creates synergy by bringing together multiple diverse groups which
can cross-pollinate ideas and concepts that will help TIGTA achieve its mission.




 30                                                TIGTA Semiannual Report to Congress
                                                       October 1, 2008 – March 31, 2009
Employee Integrity Investigations
IRS employee misconduct negatively affects the image and mission of the IRS. TIGTA is
charged with addressing IRS employee misconduct. The OI investigates allegations such as
extortion, bribery, theft, abusive treatment of taxpayers, false statements, financial fraud,
and unauthorized access (UNAX) to confidential taxpayer information, including contractor
misconduct and fraud.

UNAX is a persistent vulnerability for the IRS and the Federal tax system. The IRS is
entrusted with properly maintaining and safeguarding sensitive taxpayer information,
including personally identifiable information - the loss or misuse of which could result in
identity theft and other fraudulent activity. The Federal tax system is based on voluntary
compliance, and public confidence that the personal and financial information given to the
IRS for tax administration purposes will be kept confidential is essential to that system.
Even where unauthorized access does not involve unauthorized disclosure of taxpayer
information by an IRS employee, unauthorized accesses undermine taxpayer confidence in
the tax administration system. The OI has specific programs to protect the privacy,
integrity, and availability of this sensitive information.

During this reporting period, OI completed 808 employee integrity investigations, of which
232 were UNAX investigations. These investigations resulted in 9 criminal prosecutions
and 499 administrative disciplinary actions against IRS employees.

The following cases are examples of IRS employee and contractor integrity investigations
TIGTA conducted during this period:

Fernando Cruz Indicted for Accepting a Bribe and Wire Fraud
On October 22, 2008, Fernando Cruz was indicted in Nevada and charged with accepting a
bribe and wire fraud. According to the indictment, Cruz was an IRS Tax Compliance
Officer. Cruz was performing an audit of a tax return when he accepted $1,000 in cash and
assistance in finding an apartment in exchange for being influenced in the performance of
the audit. In addition, Cruz schemed to defraud another individual by placing his (Cruz’s)
bank account number on a tax form that resulted in the victim’s Federal tax refund and
stimulus payment being deposited into Cruz’s bank account.

Former Employee of IRS Contactor Who Stole and Deposited U.S. Treasury Checks is
Sentenced
On October 23, 2008, Jacqueline White was sentenced in Connecticut as a result of her
previous guilty plea to theft of government property. According to a U.S. DOJ press release,
White was employed as a clerk for a contractor for the IRS that operated a lockbox facility
in Windsor, Connecticut. As part of her responsibilities, White opened taxpayer remittance
envelopes and removed checks to forward for processing. In April 2006, White stole eight
checks written by individual taxpayers payable to the U.S. Treasury that had an aggregate



       TIGTA Semiannual Report to Congress                                                      31
       October 1, 2008 – March 31, 2009
value of $51,433. White altered the checks to reflect her name, “Jacqueline White”, or some
version of her name, as the payee, and then deposited the checks into her personal checking
account.

White was sentenced to three years probation, the first six months of which White must
serve in community confinement at a Salvation Army counseling program, and ordered to
pay $460 in restitution and a $100 special assessment.

Ruchika Chawla Charged with Accessing Taxpayer Information without Authorization
On October 27, 2008, in California, Ruchika Chawla was charged with using a government
computer to access or inspect taxpayer information without authority or authorization.
According to court documents, Chawla was an employee of the IRS who accessed, without
authorization, her own information, the information of five relatives, and the information of
a taxpayer who had the same name as a relative. Chawla admitted making the accesses to
her own information out of curiosity and to see how many other people had her same name.
Chawla is alleged to have made a total of 329 unauthorized accesses of an IRS database.

IRS Revenue Agent Jim Liu Agrees to Plead Guilty to Tax Fraud
On March 30, 2009, Jim H. Liu agreed to plead guilty to Count One of the indictment:
submitting a false tax return.

On November 13, 2008, Liu, a revenue agent with the IRS, was indicted in the United States
District Court for the Central District of California on one count of submitting a false tax
return and two counts of obstructing the IRS audit of his 2002 tax return.

According to court documents, in or about 2001, Liu purchased property in Pomona,
California. In or about 2002, Liu sold the property. On or about April 15, 2003, Liu falsely
claimed a $4,236 loss from the sale of the property on his 2002 tax return when Liu knew he
had actually sold the property for a substantial gain.

On or about June 18, 2004, while the IRS was conducting an audit of Liu’s 2002 tax return,
he mailed and faxed to the IRS documents that falsely listed Liu’s purchase price of the
Pomona, California, property as $231,250, when the purchase price was approximately
$185,000. Also in or about June 2004, Liu falsely stated on the documents listing the
purchase price of the property that his wife provided money for a $47,550 additional deposit
when there had not been an additional deposit.

Kimberly Perez Sentenced for Fraud Activity Connected with Computers
On November 5, 2008, Kimberly Perez was sentenced in California to one year probation,
200 hours of community service, and ordered to pay a $250 fine and a $25 assessment.
According to court documents, Perez, as an employee of the IRS, intentionally exceeded her
authorized access to an IRS data system and obtained the tax information of 24 people,
including her daughter.



  32                                                 TIGTA Semiannual Report to Congress
                                                         October 1, 2008 – March 31, 2009
Employee and Infrastructure Security
Threats to and assaults of IRS employees decrease the morale of IRS employees and affect
the Federal Government’s ability to collect tax revenue. TIGTA protects revenue collection
by investigating threats to IRS employees, IRS physical infrastructure, and IRS information
systems.

During this reporting period, OI completed 452 employee and infrastructure security
investigations. These investigations resulted in 6 criminal prosecutions.

The following cases are examples of employee and infrastructure security investigations
TIGTA conducted during this reporting period:

Laurence Wolff Sentenced for Interfering with the Administration of Internal Revenue
Laws
On March 23, 2009, Laurence Wolff was sentenced to 27 months in prison, three years
supervised release and ordered to pay $450 in assessments and a $400 fine.

On September 24, 2008, Wolff was indicted by a grand jury in Wyoming for Interference
with the Administration of Internal Revenue Laws and Mailing a Threatening
Communication. According to court documents, Wolff mailed a communication to
numerous government employees, including IRS employees, that stated he would defend
property that was the subject of an Order of Foreclosure and Decree of Sale and further
threatened to kill any person who attempted to enforce the Order. Wolff also refused to
vacate property that had been foreclosed as ordered in the Order of Foreclosure and Decree
of Sale. He posted notices on the foreclosed property threatening to use force against law
enforcement officers and barricaded entry doors to the foreclosed property. Additionally,
Wolff caused to be delivered a communication addressed to a United States judge containing
a threat to injure government agents and officials.

U.S. to be Paid more than $1 Million in Settlement for Defective Ballistic Vests Purchased
by TIGTA and other Agencies
In January 2009, according to the Department of Justice press release, Barrday Inc. and two
related companies agreed to pay more than $1 million dollars to the United States in
connection with their role in the weaving of Zylon fabric used in the manufacture and sale of
defective bullet-proof vests.

The United States alleged that Barrday’s woven Zylon fabric was used in the manufacture of
bullet-proof vests sold by various companies and that the Zylon in the vests lost its ballistic
capability quickly. These vests were purchased by agencies of the United States. TIGTA
purchased 296 ballistic vests, for a total cost of $190,495.80, that contained the Zylon fabric.
Barrday was reportedly aware of the defective nature of the Zylon by at least December
2001, but continued to sell Zylon for use in ballistic armor until approximately 2003.



       TIGTA Semiannual Report to Congress                                                     33
       October 1, 2008 – March 31, 2009
Taxpayer Indicted for Using His Vehicle to Assault IRS Employees
On December 1, 2008, Ernest Milton Barnett was indicted in the Northern District of
Alabama on two criminal counts. Count One charges Barnett with forcibly assaulting,
intimidating and interfering with employees of the IRS and the Small Business
Administration by use of a dangerous and deadly weapon, to wit: a Jeep Cherokee sport
utility vehicle, in violation of Title 18 United States Code, Section 111. Count Two of the
indictment charges that Barnett willfully injured and committed depredation against
property of the United States, to wit: a building and its contents located in Birmingham,
Alabama, and in doing so caused damage in excess of one thousand dollars ($1,000), in
violation of Title 18 United States Code, Section 1361.

Anthony Blasi Pleads Guilty to Interference with a Federal Employee
On December 12, 2008, Anthony Blasi pleaded guilty in Colorado to Interference with a
Federal employee and was sentenced to six months probation and ordered to pay a $25
special assessment. According to the sworn affidavit supporting the criminal complaint,
Blasi was being interviewed at his residence on August 11, 2008, by two IRS agents.
During the interview, Blasi became angry and said, “I should have killed you when I first
met you.” The IRS agents decided to end the meeting. Prior to the IRS agents departing,
Blasi said to one of the agents, “If you show up again, I’ll start shooting.” During a
telephone call with one of the IRS agents the next day, Blasi again made a threatening
statement.

External Attempts to Corrupt Tax Administration
External attempts to corrupt the administration of internal revenue laws diminishes the IRS’s
ability to collect revenue and accomplish its core mission. TIGTA investigates these
external attempts to corrupt or impede the administration of internal revenue laws.
Investigations in this area include:

   •   Taxpayers offering bribes to IRS employees;
   •   Use of fraudulent IRS documentation;
   •   Phishing schemes;
   •   Impersonation of IRS officials (in person, telephonically, or via the Internet); and
   •   Corruption of IRS programs or operations through procurement or contractor fraud.

TIGTA is particularly concerned about phishing schemes that rely on e-mail messages
falsely purporting to be about legitimate IRS operations. Some of the messages purport to
be from the IRS; others purport to be from legitimate businesses seeking to assist taxpayers
in dealing with the IRS. These messages have one thing in common: they solicit personally
identifiable information such as Social Security Numbers and banking information, which is
then used to commit identity theft.

During this reporting period, the IRS reported 1,523 phishing incidents. The OI continues
its efforts to educate the public about these abusive schemes to ensure that misuse of the IRS
name, impersonation of IRS employees, and identity theft incidents are minimized.

  34                                                 TIGTA Semiannual Report to Congress
                                                         October 1, 2008 – March 31, 2009
The following cases are examples of investigations of external attempts to corrupt Federal
tax administration that TIGTA conducted during this period:

Merlinhg Alcantara Sentenced for Conspiracy
On December 18, 2008, Merlinhg Alcantara was sentenced in New Jersey to five years
imprisonment, three years supervised release, and was ordered to pay $1,160,865.94 in
restitution jointly and severally with other defendants after pleading guilty to one count of
conspiracy.

According to court documents and a U.S. DOJ press release, Alcantara worked with a
number of other individuals to acquire mail containing U.S. Treasury checks by paying
baggage handlers working at Newark Liberty International Airport to steal the mail as it was
being transported in the luggage compartment of commercial airlines. To avoid detection,
on days on which airport security was conducting inspections, the baggage handlers
communicated with each other to advise of the inspections. Baggage handlers hid stolen
mail in their clothing and backpacks as they were unloading luggage. They would
subsequently remove it from the airport undetected. Alcantara would receive the stolen mail
from the baggage handlers. After the Treasury checks were acquired, counterfeit Treasury
checks were created, copying five specific characteristics of authentic Treasury checks.
Other members of the conspiracy were then given the counterfeit Treasury checks to be
negotiated at banks. More than $1 million in counterfeit Treasury checks were negotiated.

As part of the ongoing investigation, Alex Torres and Kenneth Robinson, both baggage
handlers working at Newark Airport, have pleaded guilty to conspiracy charges. Elaine
Acevedo, of the Dominican Republic, who served the role of cashing counterfeit United
States Treasury checks, has pleaded guilty in Federal court in Orlando, Florida, to one count
of bank fraud, and was sentenced to 13 months in prison, five years of supervised release,
ordered to perform 150 hours of community service, and ordered to pay $76,997 in
restitution. Juan Castillo has been charged by complaint and remains at large.

Tax Preparer Pleaded Guilty in Connection with Tax Payment Theft
On January 12, 2009, Abdul Wahid pleaded guilty in California to ten charges including
mail fraud, theft of government property, and aggravated identity theft. Wahid was
sentenced to 132 months in prison, three years supervised release, and ordered to pay a
$1,000 special assessment.

According to court documents, Wahid owned and operated a tax return business in Los
Angeles called Global Accounting and Tax Service. Wahid would prepare personal and
corporate tax returns for his clients. These returns would show significant amounts of tax
due to various taxing authorities.

Wahid would direct his clients to give him checks in the amounts of the taxes due, as
reflected on the return. In cases where the clients made the checks payable to Wahid, he


       TIGTA Semiannual Report to Congress                                                      35
       October 1, 2008 – March 31, 2009
would deposit the checks into his accounts and not pay the taxes. In cases where the clients
made the checks payable to the relevant taxing authority, Wahid would deposit the checks
into his own accounts and convert them to his own use. In order to avoid detection, Wahid
would prepare a different return showing little or no tax due and submit those returns to the
taxing authorities.

Robert Grieve Pleads Guilty to Conspiracy to Commit Wire Fraud
On November 12, 2008, Robert Grieve pleaded guilty in Washington State to Conspiracy to
Commit Wire Fraud. According to court documents, Grieve was a private investigator
based in Houston, Texas, who operated a private investigation firm called Robert Grieve,
International (RGI). RGI conspired with others to obtain through false pretenses
confidential information of unsuspecting people for use in RGI’s investigations.

Court documents indicate that in 2006, Grieve and RGI were hired to investigate the sources
and amount of income of a person. Co-conspirators used false pretenses known as
“pretexting” to telephone an IRS customer service representative and deceive the customer
service representative into releasing the person’s detailed tax information for TY 2005. RGI
then provided this information to its client.

Rulon DeYoung Indicted for Corrupt Interference with the Administration of Internal
Revenue Laws
On September 3, 2008, Rulon DeYoung was indicted by a grand jury in Utah. According to
court documents, DeYoung corruptly endeavored to obstruct the administration of the
internal revenue laws by advising and counseling a person, who DeYoung knew owed taxes
to the IRS, to transfer title of the person’s personal residence into the name of a nominee
controlled by DeYoung. The transfer was done in order to conceal ownership of the
property and prevent the IRS from seizing it. DeYoung repeated this scheme three
additional times with other persons. DeYoung was also indicted on four counts of Evasion
of Payment of Income Taxes.

Michael Sabo Sentenced for False Impersonation of an IRS Agent and Tax Evasion
On September 29, 2008, Michael J. Sabo pleaded guilty in Nevada to False Impersonation of
an Officer or Employee of the United States and Tax Evasion. According to court
documents, Sabo, under false authority while pretending to be an agent of the IRS,
affirmatively signed and filed three forms which fraudulently purported to release Federal
tax liens that the IRS lawfully imposed against his property. Sabo then sold the property,
thereby avoiding payment of taxes, and transferred most of the proceeds of the sale to a third
party to further evade the payment of his taxes.

On January 9, 2009, Sabo was sentenced to one year and one day in prison, three years
supervised release, and ordered to pay $94,909 in restitution.




  36                                                 TIGTA Semiannual Report to Congress
                                                         October 1, 2008 – March 31, 2009
George W. Dumstorf, Jr. Sentenced for Misuse of a Treasury Symbol and Bank Fraud
On October 31, 2008, George W. Dumstorf, Jr. was sentenced to 27 months in prison, five
years supervised release, and ordered to pay $850,000 in restitution and a $125 assessment.
According to court documents, Dumstorf used two fraudulent certificates of deposit,
purportedly issued by the U.S. Treasury, to act as collateral for an $850,000 loan. This loan
was to consolidate previous loans which had been obtained by Dumstorf through his use of
fraudulent certificates of deposits purportedly issued by the Kennedy Space Center Federal
Credit Union.

Ashok Patel Sentenced for Bribery of a Public Official for the Purpose of Lowering his
Tax Liability
On March 9, 2009, Ashok Patel was sentenced in the United States District Court for the
Southern District of Illinois to 10 months in prison, two years supervised release, and
ordered to pay $89,221 in restitution and a $100 assessment. Patel previously pleaded guilty
to Bribery of a Public Official. According to the indictment, Patel had intentionally and
corruptly acted to influence an official act by promising or giving $5,000 to a public official
for the purpose of accomplishing a lower tax liability.




       TIGTA Semiannual Report to Congress                                                      37
       October 1, 2008 – March 31, 2009
38   TIGTA Semiannual Report to Congress
         October 1, 2008 – March 31, 2009
               ADVANCING THE OVERSIGHT OF
                  AMERICA’S TAX SYSTEM
TIGTA’s Office of Inspections and Evaluations (I&E), established March 2008, provides
responsive, timely and cost-effective inspections and evaluations of IRS challenge areas.
I&E provides TIGTA additional flexibility and capability to provide value-added products
and services for improving tax administration.

The I&E staff is tasked with performing quick-response reviews, on-site inspections of IRS
facilities, and in-depth evaluations of major IRS functions, activities, and programs. As a
learning organization, I&E seeks to nurture new and expansive approaches to independent
and objective oversight of IRS programs and operations.

The Office has two primary product lines: Inspections and Evaluations.

Inspections:

    •    Provide factual and analytical information;
    •    Monitor compliance;
    •    Measure performance;
    •    Assess the effectiveness and efficiency of programs and operations;
    •    Share best practices; and
    •    Inquire into allegations of fraud, waste, abuse, and mismanagement.

Evaluations:

    •    Performs in-depth reviews of specific management issues, policies, or programs;
    •    Addresses government-wide or multi-agency issues, or may be conducted in
         coordination with other Offices of Inspectors General; and
    •    Develops recommendations to streamline operations, enhance data quality, and
         minimize inefficient and ineffective procedures.

The following summaries highlight significant inspections and evaluations during this six-
month reporting period.

International Tax Gap
The international tax gap is defined as taxes owed—but not collected on time—from a
United States person8 or foreign person9 whose cross-border transactions are subject to U.S.
8
  A U.S. person is defined as a citizen or resident of the United States, domestic partnership, domestic
corporation, any estate (not defined as a foreign estate under I.R.C. §7701(a)(31)), and any trust, if
administered by a U.S. court or supervised by one or more U.S. persons. I.R.C. §7701(a)(30).
9
  A foreign person includes a nonresident alien individual, foreign corporation, a foreign partnership, a foreign
trust, a foreign estate, and any other person who is not a U.S. person. IRS Publication 515 (April 2008) p 6.


         TIGTA Semiannual Report to Congress                                                                        39
         October 1, 2008 – March 31, 2009
The international tax gap is defined as taxes owed—but not collected on time—from a
United States person or foreign person whose cross-border transactions are subject to U.S.
taxation.

The challenges of international tax administration reflect the complexity of the global
economy. U.S. tax law must address a multitude of potentially taxable transactions. These
transactions are engaged in by millions of entities worldwide, including large multinational
enterprises, US-based companies operating internationally, foreign-based companies
operating in the U.S., nonresident individual investments in the U.S., individual U.S.
investors’ international investments, individual U.S. residents residing abroad, and non-
resident aliens residing in the U.S. Moreover, there are nearly 60 tax treaties with other
nations that can modify and/or change the application of tax law. The tax gap is a critical
issue for tax administration because international business and investments in the U.S. have
grown from nearly $188 billion in 1976 to over $14.5 trillion in 2007, while U.S. business
and investment overseas grew from nearly $368 billion to nearly $15 trillion over the same
period.10

 Figure 1: U.S. Business and Investment Overseas and Foreign Business and Investment
                                in the U.S., 1976 - 2007
                $15,000
                $12,500
     Billions




                $10,000
                 $7,500
                 $5,000
                 $2,500
                     $0
                          1976

                                 1978

                                        1980

                                                1982

                                                       1984

                                                              1986

                                                                     1988

                                                                            1990

                                                                                     1992

                                                                                            1994

                                                                                                   1996

                                                                                                          1998

                                                                                                                 2000

                                                                                                                        2002

                                                                                                                               2004

                                                                                                                                      2006
                                                                                   Years
                                               U.S. Investment Overseas            Foreign Investment in the U.S.


Source: TIGTA Analysis of the Bureau of Economic Analysis Data on International Investment Position of the
U.S. at Yearend, 1976-2007.11


Growth in International Activity: The tremendous growth in offshore and international
activity is a relatively recent phenomenon, even though corporate and individual use of tax
havens started in the 1950s. Since about 1980, the legal and technological barriers to the
movement of capital, goods, and services have declined dramatically12. Technological
advances have provided opportunities for offshore investments that were once only possible
for large corporations and wealthy individuals.
10
   Guttentag, Joseph and Reuven Avi-Yonah. “Chapter 5 - Closing the international tax gap” Bridging the Tax
Gap: Addressing the Crisis in Federal Tax Administration. Edited by Max B. Sawicky. Economic Policy
Institute. Washington D.C. 2005.
11
   Ibid.
12
   See footnote 10.

     40                                                                                 TIGTA Semiannual Report to Congress
                                                                                            October 1, 2008 – March 31, 2009
TIGTA found that the IRS has not developed an accurate and reliable estimate of the
international tax gap. Non-IRS estimates of the international tax gap range from $40 billion
to $123 billion annually, but are based on educated guesses rather than direct measurement.
The IRS estimated that the entire tax gap for TY 2001 was $345 billion. However, it is
doubtful that the IRS’s tax gap estimate includes the entire international tax gap because
identifying hidden income within international activity is very difficult and time-consuming.

The IRS has no plans to comprehensively measure the international tax gap due to cost,
staffing and technical limitations that make direct measurement infeasible. Consequently,
there is less certainty that international tax compliance resources are efficiently allocated to
address noncompliance.

Nevertheless, over the past few years, the IRS has taken action to better coordinate
international tax compliance issues. In September 2007, the Service-wide Approach to
International Tax Administration was announced. In July 2008, the Commissioner of
Internal Revenue announced that international issues are a top priority during his tenure.
Additionally, the IRS modified some organizational structures, changed processes to
improve compliance, invested in human capital and information technology, and increased
cooperation and outreach to foreign governments.

Religious Compensatory Time
TIGTA reviewed the IRS program controls over Religious Compensatory Time (RCT).
Taxpayers’ confidence in the integrity of the IRS could be jeopardized if IRS employees
abuse the RCT provisions for personal gain. Additionally, if the IRS does not properly
control the accrual and use of RCT, the IRS has to compensate separated employees with a
RCT balance. The funds to compensate them for the accrued RCT is derived from existing
program operating budgets.

TIGTA found that approximately 2.6 percent of IRS employees had either a positive or
negative RCT balance. Of that number, only 86 had balances that TIGTA considered to be
excessive. While the issue of excessive RCT balances is not widespread within the IRS, the
accumulation of excessive balances increases the risk that RCT may be used for unintended
purposes. This includes using RCT to receive a lump sum payment upon separation or
retirement from the IRS, taking time off for illnesses, or circumventing regulations designed
to limit employee pay.

The IRS has taken several steps to improve controls applicable to RCT. For example, the
IRS formed a task force to study the problem and issued guidance related to the proper use
of RCT. However, additional measures are required to reduce the risk that employees will
abuse RCT. TIGTA provided recommendations to IRS to help strengthen controls over the
RCT program. The IRS substantially agreed to the recommendations.




       TIGTA Semiannual Report to Congress                                                         41
       October 1, 2008 – March 31, 2009
42   TIGTA Semiannual Report to Congress
         October 1, 2008 – March 31, 2009
                    CONGRESSIONAL TESTIMONY
During this reporting period, Inspector General J. Russell George provided testimony to
Congress on one occasion and participated in a Congressional Roundtable discussion on
another.

         IRS Assistance for Taxpayers Experiencing Economic Difficulties
On February 26, 2009, Mr. George provided testimony to the House Committee on Ways
and Means, Subcommittee on Oversight regarding IRS’s efforts to assist taxpayers
experiencing economic difficulties.

Mr. George noted that the American economy is in the midst of an economic crisis. The
economy lost 3.6 million jobs in the last 13 months, the biggest job loss since the end of the
Second World War. In light of this historic economic weakness, President Obama signed
the American Recovery and Reinvestment Act of 2009 (ARRA 2009), a nationwide effort to
create jobs and transform our economy to compete in the 21st century.13 The legislation
represents the most ambitious effort to stimulate the economy in our Nation’s history.

Mr. George said that the IRS plays a key role in helping to accomplish the economic
recovery. According to Recovery.gov, tax relief accounts for approximately $288 billion of
ARRA 2009 provisions, he said. Mr. George stated that in spite of the additional challenges,
overall the IRS generally had a successful 2008 Filing Season. Most key tax law and
administrative changes were correctly implemented, and the IRS completed processing
returns on schedule and issued refunds within the required 45 calendar days of the April 15,
2008, due date, he said.

Mr. George also stated that although the IRS has improved its service to taxpayers in recent
years, more needs to be done. In this time of economic difficulty, the IRS must ensure that
it remains sensitive to the situation of the public it serves. The IRS must effectively
implement the tax relief provisions of the ARRA 2009 and assist taxpayers with filing their
tax returns and meeting their tax obligations. Mr. George noted that this is an enormous
challenge. TIGTA will continue to assist the IRS in meeting this challenge by providing
proper oversight and audits in helping to ensure the integrity, economy, and efficiency of
our tax system, he said.




13
     Pub. L. No. 111-5, 123 Stat. 115.


            TIGTA Semiannual Report to Congress                                                  43
            October 1, 2008 – March 31, 2009
                 The Growing Problem of the Nation’s Tax Gap
On October 9, 2008, Mr. George along with representatives from the Government
Accountability Office and the National Taxpayer Advocate, participated in a Tax Gap
roundtable hosted by Senator Thomas Carper (D-DE). Senator Carper hosted this informal
session to address and discuss the detrimental and rapidly growing problem facing the
United States, the Tax Gap.

The Tax Gap is defined as the difference between what taxes are owed the Federal
Government, and what taxes are paid voluntarily on time. The Internal Revenue Service
estimates the Tax Gap at $345 billion each year; however, after taking into account
enforcement actions, recoveries, and late payments, it is estimated that the annual Tax Gap
totals $290 billion annually. Mr. George noted that these numbers are most likely
inaccurate, as the IRS made these estimations based on information gathered by the National
Research Program in 2001 and that in fact, the actual Tax Gap currently warrants a much
higher figure.

Mr. George conveyed that there is no singular cause for the Tax Gap, but rather a multitude
of contributing factors that are collectively responsible for the annual Tax Gap. He further
identified TIGTA’s evaluation of the top three causes of the Tax Gap to include
underreporting of income, underpaid taxes on filed returns, and unfiled tax returns.
According to a TIGTA audit report issued in April 2008, underreporting of income makes
up 82.6 percent of the overall Tax Gap, making it the most contributing factor.

Additionally noted by Mr. George were figures obtained by the IRS revealing compliance
rates among taxpayers. On average, individual wage earners who are subject to withholding
report 99 percent of their earnings for tax purposes, whereas small business owners report
only 68 percent of their earning for tax purposes. Astonishingly, it is estimated that small
business owners who operate on a cash only basis, report only 19 percent of their earnings
for tax purposes. Mr. George pointed out that these figures are evidence as to how
enormous the Tax Gap is and where the focus needs to be in order to facilitate its reduction.

During the discussion, Mr. George and TIGTA identified five areas that could contribute to
closing the Nation’s Tax Gap. These areas include basis reporting and information
reporting, document matching, tip agreements, subchapter S employment tax reporting, and
schedule C filing – hobby loss. Mr. George also expressed that third-party reporting and
IRS’s effective use of data are also essential tools in closing the Tax Gap.




  44                                                 TIGTA Semiannual Report to Congress
                                                         October 1, 2008 – March 31, 2009
   AWARDS AND SPECIAL ACHIEVEMENTS




     Assistant Inspector General for Investigations Tim Camus Named
         Department of the Treasury Meritorious Senior Executive

An honor bestowed on only five percent of Federal Government executives, Assistant
Inspector General for Investigations Timothy Camus was recognized for his outstanding
leadership and longtime service to the United States as a Department of the Treasury
Presidential Rank Award Meritorious Senior Professional.

"I am not at all surprised by the President’s recognition of Tim. As a dedicated professional,
Tim is committed to excellence and I am proud to say he works for our organization," said J.
Russell George, Treasury Inspector General for Tax Administration.

Each year, the President recognizes and celebrates a small group of career senior executives
with the Presidential Rank Award. Recipients of this prestigious award are strong leaders
and professionals who achieve results and consistently demonstrate strength, integrity,
industriousness, and a relentless commitment to excellence in public service.

With 23 years of Federal Government tenure, Tim currently supervises all of TIGTA’s field
special agents who conduct on average over 4,000 investigations a year as well as the
Strategic Enforcement Division, the division within TIGTA responsible for computer-
related investigations including the unauthorized access to taxpayer information detection
program, computer forensics and the most recent phishing and spam e-mail impersonation
attacks.


       TIGTA Semiannual Report to Congress                                                     45
       October 1, 2008 – March 31, 2009
Tim has been a Treasury employee for the entirety of his Federal career, beginning in 1985
as a Revenue Officer for the IRS. In 1991, Tim joined the IRS Inspection Service as a
criminal investigator and followed that role when TIGTA was established under the IRS
Restructuring and Reform Act of 1998 to provide independent oversight of IRS activities. In
July 2002, Tim received the TIGTA Inspector General Award for his innovative leadership.

  Special Agent in Charge Terry Peacock Presents Award to IRS Contact
                      Representative Ieisha Austin
In October 2008, TIGTA Special Agent in Charge (SAC) Terry Peacock presented IRS
Contact Representative Ieisha Austin with a letter and token of recognition for the
outstanding assistance she provided to both TIGTA and the IRS. In August 2008,
Ms. Austin received a telephone call from an out-of-state taxpayer who she believed posed
an immediate threat to that taxpayer’s local IRS office. Austin promptly notified the
taxpayer’s local police department, as well as her manager, who in turn immediately
notified TIGTA. Mr. Peacock acknowledged and commended Austin for her accurate
assessment of the seriousness of the situation and her prompt reporting, both to the local
authorities and to the local TIGTA office, which prevented a more serious and dangerous
situation.




                       Left to right Ieisha Austin and SAC Terry Peacock




  46                                                  TIGTA Semiannual Report to Congress
                                                          October 1, 2008 – March 31, 2009
           TIGTA Office of Audit Received Letter of Appreciation
The Memphis Security and Information Technology Services office received a letter of
appreciation, plaque, and commemorative coins from the Department of Transportation
Office of Inspector General in recognition of the audit work conducted on the development
and implementation of the Excise Files Information Retrieval System. This system is used
by the IRS to help process and collect motor fuel excise taxes that are used by the Federal
Highway Trust Fund to provide funding to maintain and build Federal highways. The
Department of Transportation Inspector General recognized the Memphis audit team for
their continuing commitment to helping combat motor fuel tax evasion fraud, thereby
increasing the Highway Trust Fund revenues so essential to our Nation’s surface
transportation programs.




       TIGTA Semiannual Report to Congress                                                    47
       October 1, 2008 – March 31, 2009
48   TIGTA Semiannual Report to Congress
         October 1, 2008 – March 31, 2009
                 AUDIT STATISTICAL REPORTS

                         Reports with Questioned Costs
TIGTA issued three audit reports with questioned costs during this semiannual reporting period1.
The phrase “questioned cost” means a cost that is questioned because of:

    •    An alleged violation of a provision of a law, regulation, contract, or other requirement
         governing the expenditure of funds;
    •    A finding, at the time of the audit, that such cost is not supported by adequate
         documentation (an unsupported cost); or
    •    A finding that expenditure of funds for the intended purpose is unnecessary or
         unreasonable.

The phrase “disallowed cost” means a questioned cost that management, in a management
decision, has sustained or agreed should not be charged to the Government.


                                                                             Reports With Questioned Costs
                                                                          Questioned        Unsupported
               Report Category                          Number               Costs              Costs
                                                                        (in thousands)     (in thousands)
1. Reports with no management decision at
the beginning of the reporting period                        8                $165,011           $82,147
2. Reports issued during the reporting period                3                      $348             $0
3. Subtotals (Item 1 plus Item 2)                           11                $165,359           $82,147
4. Reports for which a management decision
was made during the reporting period. 2
   a. Value of disallowed costs                              3                      $249             $0
   b. Value of costs not disallowed                          2                      $165             $0
5. Reports with no management decision
at the end of the reporting period (Item 3
minus Item 4) 3                                              7                $164,944           $82,147
6. Reports with no management decision
   Within 6 months of issuance                               6                $164,840           $82,147
1
  See Appendix II for identification of audit reports involved.
2
  Includes one report in which IRS management allowed part of the questioned cost
3
  Difference due to rounding




         TIGTA Semiannual Report to Congress                                                               49
         October 1, 2008 – March 31, 2009
                        Reports with Recommendations that
                            Funds Be Put to Better Use
TIGTA issued one report with recommendations that funds be put to better use during this
semiannual reporting period.1 The phrase “recommendation that funds be put to better use”
means a recommendation that funds could be used more efficiently if management took actions
to implement and complete the recommendation, including:

       •     Reductions in outlays;
       •     De-obligations of funds from programs or operations;
       •     Costs not incurred by implementing recommended improvements related to operations;
       •     Avoidance of unnecessary expenditures noted in pre-award reviews of contract
             agreements;
       •     Preventing erroneous payment of the following refundable credits: Earned Income Tax
             Credit and Child Tax Credit; and
       •     Any other savings that are specifically identified.

The phrase “management decision” means the evaluation by management of the findings and
recommendations included in an audit report, and the issuance of a final decision concerning its
response to such findings and recommendations, including actions concluded to be necessary.

                    Reports With Recommendations That Funds Be Put To Better Use
                                                                                                  Amount
                                      Report Category                              Number
                                                                                              (in thousands)
       1. Reports with no management decision at the beginning of the
       reporting period                                                                0              $0
       2. Reports issued during the reporting period                                   1       $8,900,000
       3. Subtotals (Item 1 plus Item 2)                                               1       $8,900,000
       4. Reports for which a management decision was made during the
       reporting period
       a. Value of recommendations to which management agreed
                 i. Based on proposed management action                                0              $0
                ii. Based on proposed legislative action                               1      $8,900,000
       b. Value of recommendations to which management did not agree                   0              $0
       5. Reports with no management decision at end of the
          reporting period (Item 3 minus Item 4)                                       0              $0
       6. Reports with no management decision within 6 months of
       issuance                                                                        0              $0
1
    See Appendix II for identification of audit reports involved.



     50                                                             TIGTA Semiannual Report to Congress
                                                                        October 1, 2008 – March 31, 2009
                   Reports with Additional Quantifiable Impact
                          on Tax Administration
In addition to questioned costs and funds put to better use, the Office of Audit has identified
measures that demonstrate the value of audit recommendations to tax administration and business
operations. These issues are of interest to IRS and Treasury Department executives, Congress, and
the taxpaying public, and are expressed in quantifiable terms to provide further insight into the
value and potential impact of the Office of Audit’s products and services. Including this
information also promotes adherence to the intent and spirit of the Government Performance and
Results Act (GPRA).

Definitions of these additional measures are:
Increased Revenue: Assessment or collection of additional taxes.
Revenue Protection: Proper denial of claims for refunds, including recommendations that prevent
erroneous refunds or efforts to defraud the tax system.
Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the need for,
frequency of, or time spent on contacts, record keeping, preparation, or costs to comply with tax
laws, regulations, and IRS policies and procedures.
Taxpayer Rights and Entitlements at Risk: The protection of due process (rights) granted to
taxpayers by law, regulation, or IRS policies and procedures. These rights most commonly arise
when filing tax returns, paying delinquent taxes, and examining the accuracy of tax liabilities. The
acceptance of claims for and issuance of refunds (entitlements) are also included in this category,
such as when taxpayers legitimately assert that they overpaid their taxes.
Taxpayer Privacy and Security: Protection of taxpayer financial and account information
(privacy). Processes and programs that provide protection of tax administration, account
information, and organizational assets (security).
Inefficient Use of Resources: Value of efficiencies gained from recommendations to reduce cost
while maintaining or improving the effectiveness of specific programs; resources saved would be
available for other IRS programs. Also, the value of internal control weaknesses that resulted in an
unrecoverable expenditure of funds with no tangible or useful benefit in return.
Reliability of Management Information: Ensuring the accuracy, validity, relevance, and
integrity of data, including the sources of data and the applications and processing thereof, used
by the organization to plan, monitor, and report on its financial and operational activities. This
measure will often be expressed as an absolute value (i.e., without regard to whether a number is
positive or negative) of overstatements or understatements of amounts recorded on the
organization’s documents or systems.
Protection of Resources: Safeguarding human and capital assets, used by or in the custody of the
organization, from inadvertent or malicious injury, theft, destruction, loss, misuse, overpayment, or
degradation.


        TIGTA Semiannual Report to Congress                                                      51
        October 1, 2008 – March 31, 2009
The number of taxpayer accounts and dollar values shown in the following chart were derived from
analyses of historical data, and are thus considered potential barometers of the impact of audit
recommendations. Actual results will vary depending on the timing and extent of management’s
implementation of the corresponding corrective actions, and the number of accounts or subsequent
business activities impacted from the dates of implementation. Also, a report may have issues that
impact more than one outcome measure category.


                     Reports With Additional Quantifiable Impact On Tax Administration
                                                               Number of      Number of          Dollar Value
                 Outcome Measure Category
                                                                Reports1   Taxpayer Accounts    (in thousands)

                 Increased Revenue                                   4       13,071,963         $1,066,152
                 Revenue Protection                                  1                0           $125,900
                 Reduction of Burden on
                 Taxpayers                                           1            9,766                  $0
                 Taxpayer Rights and Entitlements
                 at Risk                                             1              495                  $0
                 Taxpayer Privacy and Security                       0                0                  $0
                 Inefficient Use of Resources                        0                0                  $0
                 Reliability of Management
                 Information                                         3          359,523              $5,765
                 Protection of Resources                             0                0                  $0
 1
     See Appendix II for identification of audit reports involved.


     Management did not agree with the outcome measures in the following reports:

         • Increased Revenue: Reference Numbers 2009-30-023, 2009-30-052, and 2009-20-051.
         • Revenue Protection: Reference Number 2009-10-049

 The following report contained quantifiable impacts in addition to the number of taxpayer
 accounts and dollar value:

         • Reliability of Management Information: Reference Number 2009-10-040.




       52                                                                TIGTA Semiannual Report to Congress
                                                                             October 1, 2008 – March 31, 2009
                                    INVESTIGATIONS
                                  STATISTICAL REPORTS

                                      Significant Investigative Achievements
                                          October 1, 2008 – March 31, 2009

Complaints/Allegations Received by TIGTA
       Complaints against IRS Employees                                                                 2,207
       Complaints against Non-Employees                                                                 2,067

     Total Complaints/Allegations                                                                       4,274

Status of Complaints/Allegations Received by TIGTA
       Investigations Initiated                                                                        1,496
                                  1
       In Process within TIGTA                                                                           282
       Referred to IRS for Action                                                                        389
       Referred to IRS for Information Only                                                              864
                                      2
       Referred to a Non-IRS Entity                                                                        4
       Closed with No Referral                                                                           975
       Closed with All Actions Completed                                                                 264
     Total Complaints                                                                                   4,274

Investigations Opened and Closed
       Total Investigations Opened                                                                      1,692
       Total Investigations Closed                                                                      1,605

Financial Accomplishments
       Embezzlement/Theft Funds Recovered                                                                $37,580
       Court Ordered Fines, Penalties and Restitution                                                $54,222,376
       Out-of-Court Settlements                                                                                 0

     Total Financial Accomplishments                                                                 $54,259,956
1
    Complaints for which final determination had not been made at the end of the reporting period.
2
    A non-IRS entity includes other law enforcement entities or Federal agencies.

Note: The IRS made 75 referrals to TIGTA that would more appropriately be handled by the IRS, and therefore were
returned to the IRS. These are not included in the total complaints shown above.




            TIGTA Semiannual Report to Congress                                                                     53
            October 1, 2008 – March 31, 2009
                                       Status of Closed Criminal Investigations
                                                                                             Non-
                                                                       Employee                                      Total
         Criminal Referrals1                                                                Employee
            Referred – Accepted for Prosecution                           30                      83                113
            Referred – Declined for Prosecution                           291                   217                 508
            Referred – Pending Prosecutorial Decision                     64                      97                161

         Total Criminal Referrals                                         385                   397                 782

         No Referral                                                      418                   429                 847
1
    Criminal referrals include both Federal and State dispositions.


                                                  Criminal Dispositions2
                                                                      Employee        Non-Employee                Total
Guilty                                                                    19                    68                   87
Nolo Contendere (no contest)                                               0                     0                     0
Pre-trial Diversion                                                        3                     2                     5
                        3
Deferred Prosecution                                                       0                     0                     0
Not Guilty                                                                 0                     0                     0
             4
Dismissed                                                                  2                     6                     8

Total Criminal Dispositions                                               24                    76                  100
2
  Final criminal dispositions during the reporting period. This data may pertain to investigations referred criminally in prior
reporting periods and do not necessarily relate to the investigations referred criminally in the Status of Closed Criminal
Investigations table above.
3
  Generally in a deferred prosecution the defendant accepts responsibility for his/her actions and complies with certain
conditions imposed by the court. Upon the defendant’s completion of the conditions, the court dismisses the case. If the
defendant fails to fully comply, the court reinstates prosecution of the charge.
4
  Court dismissed charges.


                    Administrative Dispositions on Closed TIGTA Investigations5
                                                                                                                  Total
Removed, Terminated or Other                                                                                        300
Suspended/Reduction in Grade                                                                                         63
Oral or Written Reprimand/Admonishment                                                                              101
Closed – No Action Taken                                                                                             78
Clearance Letter Issued                                                                                              72
Employee Resigned Prior to Adjudication                                                                              67
                                                     6
Non-Internal Revenue Service Employee Actions                                                                       345

Total Administrative Dispositions                                                                                 1,026
5
  Final administrative dispositions during the reporting period. This data may pertain to investigations referred
administratively in prior reporting periods and does not necessarily relate to the investigations closed in the Investigations
Opened and Closed table.
6
  Administrative actions taken by the IRS against non-IRS employees.




    54                                                                      TIGTA Semiannual Report to Congress
                                                                                October 1, 2008 – March 31, 2009
                                       APPENDIX I
                                   STATISTICAL REPORTS
                                         - OTHER

                             Audit Reports with Significant
                            Unimplemented Corrective Actions

The Inspector General Act of 1978 requires identification of significant recommendations described in previous
semiannual reports for which corrective actions have not been completed. The following list is based on
information from the IRS Office of Management Control’s automated tracking system maintained by Treasury
Department management officials.

                        IRS
                    Management                          Projected         Report Title and Recommendation Summary
  Reference        Challenge Area                      Completion          (F = Finding No., R = Recommendation No.,
  Number                                   Issued         Date                            P = Plan No.)
  2001-30-052        Tax Compliance       March 2001                Program Improvements Are Needed to Encourage Taxpayer
                        Initiatives                                 Compliance in Reporting Foreign Sourced Income

                                                         12/15/10   F-3, R-1, P-1, P-2. Improve systems that process data the IRS receives on
                                                                    foreign sourced income.
  2003-30-176        Tax Compliance         August                  Interest Paid to Large Corporations Could Significantly Increase Under
                        Initiatives          2003                   a Proposed New Revenue Procedure

                                                         02/15/10   F-1, R-2, P-1. Gather pertinent information concerning the affected
                                                                    proposed procedure to reduce the length of examinations and interest costs
                                                                    by conducting a pilot program to demonstrate the actual benefits that could
                                                                    be achieved.

  2004-30-068        Tax Compliance       March 2004                Additional Efforts Are Needed to Improve the Bank Secrecy Act
                        Initiatives                                 Compliance Program

                                                         06/15/09   F-2, R-1, P-1. Develop standard risk-based case selection criteria that
                                                                    would provide minimum requirements and parameters for case selection.

  2004-20-131       Security of the IRS   September                 The Use of Audit Trails to Monitor Key Networks and Systems Should
                                            2004                    Remain Part of the Computer Security Material Weakness

                                                         04/30/12   F-2, R-4, P-1. Develop and implement a reasonable approach for
                                                                    reviewing audit trails over major applications.

  2005-40-026       Providing Quality      February                 Processes Used to Ensure the Accuracy of Information for Individual
                    Taxpayer Service         2005                   Taxpayers on IRS.GOV Need Improvement
                       Operations
                                                         12/31/10   F-1, R-1, P-4. Develop a process to ensure that only authorized personnel
                                                                    have access to IRS.gov content.
                                                         12/31/10   F-1, R-2, P-1, P-2. Enhance the IRS’s content management software
                                                                    application to provide the ability to identify specific content accessed or
                                                                    revised by individual users.




                TIGTA Semiannual Report to Congress                                                                               55
                October 1, 2008 – March 31, 2009
                   IRS
               Management                        Projected        Report Title and Recommendation Summary
Reference     Challenge Area                    Completion         (F = Finding No., R = Recommendation No.,
Number                               Issued        Date                           P = Plan No.)
2005-20-024   Security of the IRS    March                   The Disaster Recovery Program Has Improved, But It Should
                                     2005                    Be Reported as a Material Weakness Due to Limited Resources
                                                             and Control Weaknesses

                                                 12/31/10    F-1, R-1, P-1, P-5. Report a disaster recovery program material
                                                             weakness to the Department of the Treasury as part of the IRS’s
                                                             Federal Managers’ Financial Integrity Act of 1982 annual
                                                             evaluation of controls and include any new or currently underway
                                                             activities in the corrective action plan.
2005-10-107    Human Capital        July 2005                Improved Policies and Guidance Are Needed for the Telework
                                                             Program

                                                 03/15/09    F-1, R-1, P-1. Ensure an IRS-wide Flexiplace Program policy is
                                                             developed and implemented that addresses all the elements
                                                             recommended by the Office of Personnel Management.
                                                 03/15/09    F-2, R-2, P-1. Ensure Flexiplace Program training is provided as
                                                             needed to help address productivity concerns.
2005-40-110   Providing Quality     July 2005                The Effectiveness of the Taxpayer Assistance Center Program
              Taxpayer Service                               Cannot Be Measured
                 Operations
                                                 09/15/09    F-1, R-3, P-1. Develop a process that includes routine
                                                             assessments of Taxpayer Assistance Center (TAC) operations to
                                                             ensure the TACs are optimally located and the services provided
                                                             at the TACs are the most effective and cost efficient.

2005-10-129   Providing Quality     September                Progress Has Been Made, but Further Improvements Are
              Taxpayer Service        2005                   Needed in the Administration of the Low Income Taxpayer
                 Operations                                  Clinic Grant Program
                                                 05/31/10
                                                             F-1, R-1, P-2. Establish goals and performance measures for the
                                                             LITC program to assist the Congress and IRS in evaluating the
                                                             success of the program.

2005-10-149    Human Capital        September                The Internal Revenue Service Does Not Adequately Assess the
                                      2005                   Effectiveness of Its Training

                                                 12/31/09    F-2, R-1, P-2. Ensure all IRS components follow established
                                                             procedures to evaluate training in order for the IRS to comply
                                                             with the training assessment requirement of the Federal
                                                             Workforce Flexibility Act of 2004.

2005-30-154   Processing Returns    September                The Clarity of Math Error Notices Has Been Improved, but
              and Implementing        2005                   Further Changes Could Enhance Notice Clarity and Reduce
              Tax Law Changes                                Unnecessary Notices
                During the Tax
                Filing Season                    04/15/10    F-1, R-2, P-1. Revise tax statement tables contained on notices to
                                                             include specific amounts from at least some line items on which
                                                             taxpayers made errors on their tax returns.




    56                                                        TIGTA Semiannual Report to Congress
                                                                 October 1, 2008 – March 31, 2009
                    IRS
                Management                        Projected           Report Title and Recommendation Summary
Reference      Challenge Area                    Completion            (F = Finding No., R = Recommendation No.,
Number                                Issued        Date                              P = Plan No.)
2006-20-166    Security of the IRS   September                   The Monitoring of Privacy Over Taxpayer Data Is Improving,
                                       2006                      Although Enhancements Can Be Made to Ensure Compliance
                                                                 With Privacy Requirements

                                                   03/31/09      F-2, R-1, P-3, P-4. Initiate a program providing for the routine
                                                                 evaluation of employee training activities relative to current
                                                                 privacy policy requirements and develop a system for the tracking
                                                                 and monitoring of these activities.
2007-40-057    Providing Quality      March                      Steps Can Be Taken to Reduce the Challenges Taxpayers With
               Taxpayer Service       2007                       Vision Impairments Face When Attempting to Meet Their Tax
                  Operations                                     Obligations
                                                   05/15/09
                                                                 F-2, R-2, P-1. Using the results of the study, develop a long-term
                                                   01/15/10      strategy to assist taxpayers with vision impairments, including
                                                                 seniors.
                                                                 F-3, R-1, P-1. Provide additional viewing options on IRS.gov,
                                                                 such as scalable fonts, enlarged text size, or background colors to
                                                                 make it more accessible to taxpayers with vision impairments.

2007-30-062     Tax Compliance        March                      Social Security and Medicare Taxes Are Not Being Properly
                   Initiatives        2007                       Assessed on Some Tips and Certain Types of Wage Income

                                                 P-1: 01/15/10   F-1, R-2, P-1, P-2. Develop a compliance program to ensure the
                                                 P-2: 07/15/10   revised Form 4137 is used effectively to identify and assess the
                                                                 employer’s share of Social Security and Medicare taxes on
                                                 P-1: 01/15/10   unreported tip income.
                                                 P-2: 07/15/10   F-3, R-2, P-1, P-2. Develop a compliance program to help ensure
                                                                 only qualifying individuals use the new form to report wage
                                                                 income and the appropriate amounts of Social Security and
                                                                 Medicare taxes are assessed for self-employed taxpayers or
                                                                 employers that are misclassifying their employees.

2007-10-082      Tax Exempt          May 2007                    Screening Tax-Exempt Organizations Filing Information
                 Organizations                                   Provides Minimal Assurance That Potential Terrorist-Related
                                                                 Activities Are Identified

                                                   01/31/10      F-1, R-1, P-1. Develop and implement a long-term strategy to
                                                                 automate the matching of Forms 1023 and 990 information
                                                                 against a consolidated terrorist watch list to initially identify
                                                                 potential terrorist activities related to tax-exempt organizations.

2007-20-121        Systems            August                     Annual Assessment of the Business Systems Modernization
                Modernization of       2007                      Program
                   the IRS                         12/31/10
                                                                 F-1, R-1, P-1. Continue to address Modernization program
                                                                 corrective actions from TIGTA and Government Accountability
                                                                 Office reports through the Highest Priority Initiatives process.




            TIGTA Semiannual Report to Congress                                                                           57
            October 1, 2008 – March 31, 2009
                   IRS
               Management                       Projected           Report Title and Recommendation Summary
Reference     Challenge Area                   Completion            (F = Finding No., R = Recommendation No.,
Number                             Issued         Date                              P = Plan No.)
2008-30-027    Tax Compliance      December                    Tax Examiners Did Not Always Resolve Refund Delinquency
                  Initiatives        2007                      Cases, And Computer Checks Did Not Identify Unfiled Returns

                                                 08/15/09      F-2, R-1, P-1. Modify the Return Delinquency case creation
                                                               criteria to ensure delinquency inquiries are made of related tax
                                                               period Forms 941 and Form 940.

2008-30-056    Human Capital        March                      A More Strategic Approach Could Enhance the Workers’
                                    2008                       Compensation Program Return-To-Work-Efforts

                                                 05/15/09      F-3, R-1, P-1. Develop and establish a more strategic approach to
                                                               enhance return-to-work efforts that include specific policies and
                                                               procedures for working across functional areas to transition
                                                               injured employees into productive activities in the workplace.

2008-40-087   Complexity of the     March                      Individual Retirement Account Contributions and Distributions
                 Tax Law            2008                       Are Not Adequately Monitored to Ensure Tax Compliance

                                                 12/15/11      F-1, R-1, P-1. Analyze Forms 5498 to identify the causes of the
                                                               errors and possible corrective actions.
                                                 01/15/10      F-2, R-1, P-1. Develop and implement strategies to bring
                                                               noncompliant taxpayers back into compliance.
                                                 01/15/10      F-3, R-1, P-1. Consider using the indicator on the Form 5498,
                                                               Box 11 to identify taxpayers who are subject to required
                                                 03/15/11      minimum distributions.
                                                               F-3, R-2, P-1. Consider requiring custodians to report estimated
                                                               required minimum distribution amounts on the Form 5498.

2008-10-132    Human Capital       June 2008                   Progress Has Been Made, But Important Work Must Be
                                                               Completed to Ensure Timely Identification of Future Leaders

                                               P-1: 04/30/09   F-1, R-1, P-1, P-2. Develop a written strategic leadership
                                               P-2: 04/15/09   succession plan that documents the high-level succession strategy
                                                               and how the strategy will work with other human capital efforts.
                                                 03/15/09      F-1, R-2, P-1. Prepare a plan that specifies the key activities that
                                                               should be completed in the short term to ensure that the leadership
                                                               succession program continues to move forward.

2008-40-146   Processing Returns   July 2008                   Procedures Were Not Always Followed When Resolving
              and Implementing                                 Alternative Minimum Tax Discrepancies
              Tax Law Changes
                During the Tax                   05/15/09      F-1, R-1, P-1. Provide information to tax examiners reiterating
                Filing Season                                  the importance of correctly resolving Alternative Minimum Tax
                                                               discrepancies and highlighting specific issues that could lead to
                                                               incorrect resolution.




    58                                                          TIGTA Semiannual Report to Congress
                                                                   October 1, 2008 – March 31, 2009
                    IRS
                Management                        Projected        Report Title and Recommendation Summary
Reference      Challenge Area                    Completion         (F = Finding No., R = Recommendation No.,
Number                                Issued        Date                           P = Plan No.)
2008-20-159    Security of the IRS    August                  Unauthorized and Insecure Internal Web Servers Are
                                       2008                   Connected to the Internal Revenue Service Network

                                                  05/01/09    F-1, R-2, P-1. Enforce IRS procedures to block unauthorized
                                                              Web servers from providing data over the IRS network.
                                                  08/01/09    F-1, R-3, P-1. Require an annual scan of Web servers and
                                                              compare the scan results to the Web registration database.
                                                  08/01/09    F-2, R-1, P-1. Require annual network scans of Web servers to
                                                              measure compliance with security requirements.
                                                  05/01/09    F-2, R-2, P-1. Formally limit the number of approved Web
                                                              software packages for Web servers used in the non-modernized
                                                              environment.

2008-40-167     Tax Compliance        August                  The Withholding Compliance Program Is Improving Taxpayer
                   Initiatives         2008                   Compliance; However, Additional Enforcement Actions Are
                                                              Needed
                                                  12/15/09
                                                              F-1, R-1, P-1. Develop a process to identify those employers that
                                                              do not adequately withhold taxes from their employees after
                                                  05/15/10    receiving a lock-in-letter.
                                                              F-1, R-2, P-2. Develop employer examination criteria for
                                                  12/15/09    referring those employers that did not follow lock-in-letter
                                                              instructions.
                                                  12/15/10    F-1, R-3, P-1. Develop and deliver training to appropriate IRS
                                                              employees on the existing criteria for the current referral process.
                                                              F-1, R-4, P-1. Research and develop criteria that will expand the
                                                  12/15/13    use of the Form W-4 civil penalty beyond the current limitation of
                                                              referrals and special projects.
                                                              F-2, R-1, P-1. Create a single data entry point for processing
                                                              Withholding Compliance Program cases and, provide lock-in-
                                                              letter issuance authority to other IRS functions.

2008-10-169     Human Capital         August                  A More Strategic and Consistent Approach to Estimating
                                       2008                   Retirements and Other Separations Is Needed to Better Plan
                                                              For Future Human Resource Needs

                                                  07/15/09    F-1, R-1, P-1. Establish a more collaborative, integrative process
                                                              to implement agency wide roles and responsibilities for
                                                              effectively creating, refining, and using separation projections.

2008-20-151        Systems           September                Customer Account Data Engine Project Management Practices
                Modernization of       2008                   Have Improved, But Continued Attention Is Needed to Ensure
                   the IRS                                    Future Success

                                                  04/01/09    F-1, R-1, P-1. Ensure that a Historical Data Conversion solution
                                                              is in place to enable the Customer Account Data Engine (CADE)
                                                              to process transactions related to issues such as balance-due
                                                  07/01/09    conditions.
                                                              F-1, R-2, P-1. Develop an updated estimate of the processing and
                                                              storage requirements, including the related costs, to support the
                                                              long-term objectives and goals of CADE operations.




            TIGTA Semiannual Report to Congress                                                                       59
            October 1, 2008 – March 31, 2009
                   IRS
               Management                       Projected           Report Title and Recommendation Summary
Reference     Challenge Area                   Completion            (F = Finding No., R = Recommendation No.,
Number                              Issued        Date                              P = Plan No.)
2008-40-171   Processing Returns   September                   Most Tax Returns Prepared By a Limited Sample of Unenrolled
              and Implementing       2008                      Preparers Contained Significant Errors
              Tax Law Changes
                During the Tax                   06/15/10      F-1, R-1, P-1. Develop and require a single identification number
                Filing Season                                  to control and monitor all paid preparers.

2008-40-180    Tax Compliance      September                   Most Automated Underreporter Notices Are Correct; However,
                  Initiatives        2008                      Additional Oversight Is Needed

                                                 09/15/11      F-1, R-2, P-1. Simplify the Computer Paragraph 2000 notices
                                                               issued by the Automated Underreporter Program.

2008-40-182     Erroneous and      September                   Processes Are Not Sufficient To Minimize Fraud and Ensure
              Improper Payments      2008                      the Accuracy of Tax Refund Direct Deposits

                                               P-1: 04/15/09   F-1, R-2, P-1, P-3. Develop an education campaign to clearly
                                               P-2: 05/15/09   alert taxpayers and tax return preparers of the requirements that
                                                               direct deposits only be made to accounts in the name of a
                                                               recipient.

2008-40-183   Processing Returns   September                   The 2008 Filing Season Was Generally Successful Despite the
              and Implementing       2008                      Challenges of Late and Unexpected Tax Legislation
              Tax Law Changes
                During the Tax                   01/15/10      F-1, R-1, P-1. Ensure that the computer systems are programmed
                Filing Season                                  to identify taxpayer returns claiming the Qualified Mortgage
                                                               Insurance Premiums deduction with Adjusted Gross Income that
                                                               exceeds the maximum phase-out limitations.




    60                                                          TIGTA Semiannual Report to Congress
                                                                   October 1, 2008 – March 31, 2009
                                Other Statistical Reports

            The Inspector General Act of 1978 requires Inspectors General
                           to address the following issues:

                        Issue                                        Result for TIGTA

Access to Information
Report unreasonable refusals of information            As of March 31, 2009, there were no
available to the agency that relate to programs and    instances where information or assistance
operations for which the Inspector General has         requested by the Office of Audit was refused.
responsibilities.


Disputed Audit Recommendations
                                                       As of March 31, 2009, no reports were issued
Provide information on significant management
                                                       where significant recommendations were
decisions in response to audit recommendations with
                                                       disputed.
which the Inspector General disagrees.


Revised Management Decisions
Provide a description and explanation of the reasons   As of March 31, 2009, no significant
for any significant revised management decisions       management decisions were revised.
made during the reporting period.


Audit Reports Issued in the Prior Reporting
Period With No Management Response
                                                       As of March 31, 2009, there were no prior
Provide a summary of each audit report issued
                                                       reports where management’s response was
before the beginning of the current reporting period
                                                       not received.
for which no management response has been
received by the end of the current reporting period.


Review of Legislation and Regulations
                                                       TIGTA’s Office of Chief Counsel reviewed
Review existing and proposed legislation and
                                                       202 proposed regulations and legislative
regulations, and make recommendations concerning
                                                       requests during this reporting period.
the impact of such legislation or regulations.




        TIGTA Semiannual Report to Congress                                                        61
        October 1, 2008 – March 31, 2009
62   TIGTA Semiannual Report to Congress
        October 1, 2008 – March 31, 2009
                                 APPENDIX II
                               AUDIT PRODUCTS
                     October 1, 2008 – March 31, 2009


                                                         Inspector General Congressional Testimony
Reference Number                             Hearing Title
              October 2008
                   Inspector General Testimony before Senator Carper Congressional Roundtable: Making
 2009-OT-033
                   Headway on Closing the Tax Gap
              February 2009
                   Inspector General Testimony before U.S. House of Representatives Subcommittee on
 2009-OT-048       Oversight Committee on Ways and Means: IRS Assistance for Taxpayers Experiencing
                   Economic Difficulties


                                                                                            Audit Products
Reference Number                              Report Title
               October 2008
                 Customer Account Data Engine Release 3 Successfully Processes Individual Tax Return and
 2009-20-001
                 Tax Account Information
                 The Modernization Vision and Strategy Program Is Achieving Desired Results, but Risks
 2009-20-008
                 Remain
            November 2008
                 A Budget and Additional Business Measures Would Help the Criminal Investigation Division
 2009-10-017
                 Better Administer Its Counterterrorism Efforts
 2009-1C-002     Fiscal Year 2005 Incurred Cost Audit
 2009-1C-003     Audit of Compensation System and Related Internal Controls
 2009-1C-004     Audit on Labor Charging and Timekeeping Practices
                 Supplement to Audit of Direct Costs on Contracts TIRNO-00-D-00014 and
 2009-1C-005
                 TIRNO-06-D-00026 (Questioned Costs: $104,548)
 2009-1C-006     Audit of Estimating System and Related Internal Controls
 2009-1C-007     Cumulative Allowable Cost Worksheet for Fiscal Year Ended June 30, 2006
            December 2008
                 Despite the Success Achieved, the Son of Boss Settlement Had Little Impact on Investor Filing
 2009-30-018     and Payment Compliance
                 The Internal Revenue Service Deployed the Modernized e-File System With Known Security
 2009-20-026     Vulnerabilities
                 The Earned Income Tax Credit Program Has Made Advances; However, Alternatives to
                 Traditional Compliance Methods Are Needed to Stop Billions of Dollars in Erroneous
 2009-40-024     Payments



         TIGTA Semiannual Report to Congress                                                             63
         October 1, 2008 – March 31, 2009
              January 2009
2009-1C-009        Follow up Audit on Information Technology System General Internal Controls
2009-1C-010        Follow up Audit on Indirect and Other Direct Cost System Internal Controls
2009-1C-011        Report on the Contractor’s Purchasing System
2009-1C-012        Audit of Fiscal Year 2009 Forward Pricing Rates
2009-1C-013        Supplement to Audit of Fiscal Year 2006 Incurred Costs (Questioned Costs: $184,194)
2009-1C-014        Follow up Audit on the Contractor’s Facilities Utilization
2009-1C-015        Incurred Cost Audit for Fiscal Year Ended June 30, 2006
2009-1C-016
                   Evaluation of Fiscal Years 2003 Through 2005 Internal Revenue Service Cumulative
                   Allowable Cost Worksheets

2009-40-030
                   Call Volume Associated With the Economic Stimulus Payments Made It Difficult to Reach
                   the Internal Revenue Service During Fiscal Year 2008
                 Attestation Review of the Internal Revenue Service’s Fiscal Year 2008 Annual Accounting
2009-10-040      of Drug Control Funds and Related Performance (Reliability of Information: 39 prior year
                 cases that should not be included in the report)
           February 2009
                While Actions Have Been Taken to Address Worker Misclassification, an Agency-Wide
2009-30-035
                Employment Tax Program and Better Data Are Needed
                Some Automated Collection System Large-Dollar Cases Were Not Worked Effectively
2009-30-023
                (Increased Revenue: $209 million impacting 1,001 taxpayers)
                Current Practices Might Be Preventing Use of the Most Advantageous Contractual Methods to
2009-10-037
                Acquire Goods and Services
                Examiners Did Not Always Properly Select the Prior and/or Subsequent Year Tax Returns
2009-30-034
                (Increased Revenue: 16,830 taxpayers impacted)
2009-20-038     Better Emergency Preparedness Planning Could Improve Business Continuity Efforts
                Implementing the Data Strategy Will Make System and Application Development More
2009-20-022
                Efficient and Effective
                The Federal Payment Levy Program Needs to Reduce Taxpayer Burden and Maximize
2009-40-031
                Revenue
                Additional Actions Are Needed to Protect Taxpayers’ Rights and the Government’s Interest
2009-30-036     During Bankruptcy Proceedings (Taxpayer Rights and Entitlements: 495 taxpayers with liens
                filed)
                Tax Practitioners Promoting Abusive Tax Shelters Are Still Able to Represent Taxpayers
2009-10-039     Before the Internal Revenue Service (Taxpayer Burden: 9,766 taxpayers represented by
                penalized, enjoined, or sentenced preparers)
                An Agency-Wide Recruitment Strategy and Effective Performance Measures Are Needed to
2009-10-025
                Address Future Recruiting Challenges
                The Process Taxpayers Must Use to Report Complaints Against Tax Return Preparers Is
2009-40-032
                Ineffective and Causes Unnecessary Taxpayer Burden
                Workforce Planning Efforts Are Hindered by a Lack of Comprehensive Information on
2009-10-041
                Employee Skills Levels
           March 2009
2009-30-044     Revenue Officers Have Minimal Need for Individual Forms 809 Books
                While Controls Have Been Implemented to Address Malware, Continued Attention Is Needed
2009-20-045
                to Address This Growing Threat
                There Were Significant Limitations in Phase 1 of the Facilitated Self-Assistance Research
2009-40-047
                Project


 64                                                             TIGTA Semiannual Report to Congress
                                                                   October 1, 2008 – March 31, 2009
               Fiscal Year 2009 Statutory Review of Disclosure of Collection Activity With Respect to Joint
2009-30-046
               Returns
               Controls Over Employee Telephone Calling Cards Are Insufficient to Identify Waste, Fraud,
2009-10-050
               and Abuse (Questioned Costs: $59,249)
               Significant Revenue Continues to Be Lost Because of Unassessed Failure to Pay Tax Penalties
2009-30-052
               (Increased Revenue: $855,451,550 impacting 13,054,132 taxpayers)
2009-30-054    Fiscal Year 2009 Statutory Review of Restrictions on Directly Contacting Taxpayers
               Reliance on New Procedures Allowed Some False Economic Stimulus Payments to Be Issued
2009-10-049    and Pose a Continuing Risk of False Refunds Being Issued in the Future (Revenue Protection:
               $125.9 million)
               Statistical Portrayal of the Criminal Investigation Division’s Enforcement Activities for
2009-30-053
               Fiscal Years 2000 Through 2008
               Audit of Noncompliance With Cost Accounting Standard 414, Cost of Money As an Element
2009-1C-019
               of the Cost of Facilities Capital
2009-1C-020    Audit of the Contractor’s Indirect Cost and Other Direct Cost System Internal Controls
2009-1C-021    Audit of Comprehensive Labor
2009-1C-027    Audit of the Adequacy and Compliance of Revised Disclosure Statement
               Audit of the Adequacy and Compliance of the Contractor’s Fiscal Year 2009 Revised
2009-1C-028
               Disclosure Statement
               Audit of Noncompliance With Cost Accounting Standard 418, Allocation of Direct and
2009-1C-029
               Indirect Costs
2009-1C-042    Follow up Audit on Information Technology System General Internal Controls
2009-1C-043    Follow up Audit of Accounting System Internal Controls
               Progress Has Been Slow in Implementing Federal Security Configurations on Employee
2009-20-055
               Computers
               The Fuel Excise Tax Compliance Program Has Made Significant Progress, but Program
               Improvements Are Needed to Increase Highway Trust Fund Revenue (Increased Revenue:
2009-20-051
               $1.7 million; Reliability of Information: $5.765 million presented in reports on program results
               are not fully represented or timely filed)
2009-40-058    Interim Results of the 2009 Filing Season
               A Documented Comprehensive Strategy Is Needed to Focus Efforts on Ensuring Compliance
2009-10-056
               by Tax-Exempt Non-filers
               Actions Are Needed to Ensure Proper Use of Individual Taxpayer Identification Numbers and
               to Verify or Limit Refundable Credit Claims (Funds Put to Better Use: $8.9 billion; Reliability
2009-40-057
               of Information: 359,523 e-filed returns with Taxpayer Identification Numbers incorrectly input
               into IRS systems)




       TIGTA Semiannual Report to Congress                                                               65
       October 1, 2008 – March 31, 2009
66   TIGTA Semiannual Report to Congress
        October 1, 2008 – March 31, 2009
                           APPENDIX III
                        TIGTA’S STATUTORY
                     REPORTING REQUIREMENTS

TIGTA issued eight audit reports required by statute dealing with the adequacy and security of IRS
technology during this reporting period. In FY 2009, TIGTA will complete its eleventh round of
statutory reviews that are required annually by the IRS Restructuring and Reform Act of 1998
(RRA 98). It will also complete its annual review of the Federal Financial Management Improvement
Act of 1996. TIGTA has completed its annual review of the Office of National Drug Control Policy
Detailed Accounting Submission and Assertions. The following table reflects the
FY 2009 statutory reviews.



       Reference to                 Explanation of the
                                                                          Comments/TIGTA Audit Status
    Statutory Coverage                  Provision

Enforcement Statistics           Requires TIGTA to              Audit in report writing phase.
                                 evaluate the IRS’s
Internal Revenue Code (I.R.C.)   compliance with
§ 7803(d)(1)(A)(i)               restrictions under section
                                 1204 of RRA 98 on the use
                                 of enforcement statistics to
                                 evaluate IRS employees.




          TIGTA Semiannual Report to Congress                                                           67
          October 1, 2008 – March 31, 2009
        Reference to            Explanation of the
                                                                          Comments/TIGTA Audit Status
     Statutory Coverage             Provision

Restrictions on Directly     Requires TIGTA to                 Reference No. 2009-30-054, issued March 2009
Contacting Taxpayers         evaluate the IRS’s                The IRS has informed taxpayers of their rights related to
                             compliance with restrictions      I.R.C. §§ 7521(b)(2) and (c) through various publications.
I.R.C.                       under I.R.C. § 7521 on            However, between October 2007 and September 2008, six
§ 7803(d)(1)(A)(ii)          directly contacting taxpayers     complaint/investigation cases closed by TIGTA’s Office of
                             who have indicated they           Investigations found that IRS employees improperly bypassed
                             prefer their representatives be   taxpayer representatives and were either counseled or
                             contacted.                        reprimanded for their actions.
                                                               Neither TIGTA nor the IRS can provide assurances that
                                                               there were not other potential direct contact violations.
                                                               IRS management information systems do not separately
                                                               record or monitor cases that involve direct contact issues,
                                                               and there is no legal requirement to do so.
                                                               The Internal Revenue Manual (IRM) provides IRS
                                                               employees with directions and explanations of the
                                                               statutory and administrative procedures to follow in their
                                                               day-to-day contacts with taxpayers and their
                                                               representatives. However, the IRS could take better
                                                               advantage of group manager review processes to ensure
                                                               Examination function employees are properly following
                                                               the direct contact provisions.
                                                               Currently, there is no requirement in the IRM that specifically
                                                               requires Examination function group managers to address
                                                               direct contact issues during reviews even though such reviews
                                                               are a key control component that ensures procedures are
                                                               followed and work is meeting acceptable standards. The
                                                               requirement would also be consistent with IRM guidance for
                                                               Collection function group manager reviews. Most
                                                               importantly, perhaps, the documentation from the reviews
                                                               could provide needed support to provide greater assurances
                                                               that Examination function employees are following the direct
                                                               contact provisions in their day-to-day contact with taxpayers
                                                               and their representatives.


Filing of a Notice of Lien   Requires TIGTA to                 Audit in report writing phase.
                             evaluate the IRS’s
I.R.C.                       compliance with required
§ 7803(d)(1)(A)(iii)         procedures under I.R.C.
                             § 6320 upon the filing of a
                             notice of lien.




  68                                                                TIGTA Semiannual Report to Congress
                                                                       October 1, 2008 – March 31, 2009
        Reference to                 Explanation of the
                                                                             Comments/TIGTA Audit Status
     Statutory Coverage                  Provision

Extensions of the Statute of      Requires TIGTA to include       Audit fieldwork in progress.
Limitations for Assessment of     information regarding
Tax                               extensions of the statute of
                                  limitations for assessment
I.R.C.                            of tax under I.R.C. § 6501
§ 7803(d)(1)(C)                   and the provision of notice
                                  to taxpayers regarding the
I.R.C.                            right to refuse or limit the
§ 6501(c)(4)(B)                   extension to particular
                                  issues or a particular period
                                  of time.


Levies                            Requires TIGTA to               Audit in report writing phase.
                                  evaluate the IRS’s
I.R.C.                            compliance with required
§ 7803(d)(1)(A)(iv)               procedures under I.R.C.
                                  § 6330 regarding levies.



Collection Due Process            Requires TIGTA to               Audit fieldwork in progress.
                                  evaluate the IRS’s
I.R.C.                            compliance with required
§ 7803(d)(1)(A)(iii) and (iv)     procedures under I.R.C.
                                  §§ 6320 and 6330 regarding
                                  the taxpayers’ rights to
                                  appeal lien or levy actions.



Seizures                          Requires TIGTA to               Audit in report writing phase.
                                  evaluate the IRS’s
I.R.C.                            compliance with required
§ 7803(d)(1)(A)(iv)               procedures under I.R.C.
                                  §§ 6330 through 6344 when
                                  conducting seizures.


Taxpayer Designations – Illegal   An evaluation of the IRS’s      Audit in report writing phase.
Tax Protester Designation and     compliance with
Nonfiler Designation              restrictions under
                                  section 3707 of RRA 98 on
I.R.C.                            designation of taxpayers.
§ 7803(d)(1)(A)(v)




           TIGTA Semiannual Report to Congress                                                             69
           October 1, 2008 – March 31, 2009
       Reference to                   Explanation of the
                                                                               Comments/TIGTA Audit Status
    Statutory Coverage                    Provision

Disclosure of Collection           Requires TIGTA to review          Reference No. 2009-30-046, issued March 2009
Activities With Respect to         and certify whether the IRS       IRS procedures provide employees with sufficient
Joint Returns                      is complying with I.R.C.          guidance for handling joint filer collection activity
                                   § 6103(e)(8) to disclose          information requests. However, TIGTA could not
I.R.C.                             information to an individual      determine whether the IRS fully complied with
§ 7803(d)(1)(B)                    filing a joint return on          I.R.C. § 6103(e)(8) requirements when responding to all
                                   collection activity involving     written information requests from joint filers. IRS
I.R.C.                             the other individual filing the   management information systems do not separately record
§ 6103(e)(8)                       return.                           or monitor joint filer requests, and there is no legal
                                                                     requirement for the IRS to do so. TIGTA does not
                                                                     recommend the creation of a separate tracking system.


Taxpayer Complaints                Requires TIGTA to include         Statistical results on the number of taxpayer
                                   in each of its Semiannual         complaints received are shown on page 53.
I.R.C.                             Reports to Congress the
§ 7803(d)(2)(A)                    number of taxpayer
                                   complaints received and the
                                   number of employee
                                   misconduct and taxpayer
                                   abuse allegations received by
                                   IRS or TIGTA from
                                   taxpayers, IRS employees
                                   and other sources.


Administrative or Civil Actions    Requires TIGTA to include         Audit fieldwork in progress.
With Respect to the Fair Tax       information regarding any
Collection Practices Act of 1996   administrative or civil actions
                                   with respect to violations of
I.R.C.                             the fair debt collection
§ 7803(d)(1)(G)                    provision of I.R.C. § 6304,
                                   including a summary of such
I.R.C.                             actions, and any resulting
§ 6304                             judgments or awards granted.
Section 3466 of RRA 98



Denial of Requests for             Requires TIGTA to include
Information                        information regarding
                                                                     Audit fieldwork in progress.
                                   improper denial of requests
I.R.C.                             for information from the IRS,
§ 7803(d)(1)(F)                    based on a statistically valid
                                   sample of the total number of
I.R.C.                             determinations made by the
§ 7803(d)(3)(A)                    IRS to deny written requests
                                   to disclose information to
                                   taxpayers on the basis of
                                   I.R.C. § 6103 or 5 U.S.C.
                                   § 552(b)(7).




  70                                                                      TIGTA Semiannual Report to Congress
                                                                             October 1, 2008 – March 31, 2009
        Reference to                  Explanation of the
                                                                              Comments/TIGTA Audit Status
     Statutory Coverage                   Provision

Adequacy and Security of the       Requires TIGTA to evaluate       Information Technology Reviews:
Technology of the IRS              the IRS’s adequacy and           Reference Number 2009-20-001, October 24, 2008
                                   security of its technology.      Reference Number 2009-20-008, October 31, 2008
I.R.C.                                                              Reference Number 2009-20-022, February 19, 2009
§ 7803(d)(1)(D)                                                     Reference Number 2009-20-051, March 30, 2009

                                                                    Security Reviews:
                                                                    Reference Number 2009-20-026, December 30, 2008
                                                                    Reference Number 2009-20-038, February 13, 2009
                                                                    Reference Number 2009-20-045, March 10, 2009
                                                                    Reference Number 2009-20-055, March 27, 2009


Federal Financial Management       Requires TIGTA to evaluate       Audit fieldwork in progress.
Improvement Act of 1996            the financial management
(FFMIA)                            systems to ensure
                                   compliance with Federal
31 U.S.C. § 3512                   requirements, or
                                   establishment of a
                                   remediation plan with
                                   resources, remedies, and
                                   intermediate target dates to
                                   bring the IRS into substantial
                                   compliance.


Office of National Drug Control    Requires TIGTA to                Reference No. 2009-10-040, issued January 2009
Policy Detailed Accounting         authenticate the IRS’s           TIGTA determined that the methodology used to prepare
Submission and Assertions          Office of National Drug          the IRS’s FY 2008 ONDCP Detailed Accounting
                                   Control Policy (ONDCP)           Submission and Performance Summary Report was clearly
National Drug Enforcement          detailed accounting              explained and adequately documented. However, TIGTA
Policy 21 U.S.C. § 1704(d) and     submission and assertions.       did identify that the performance information reported by
the Office of National Drug                                         the IRS included a small number of cases from fiscal years
Control Policy Circular entitled                                    prior to FY 2008. Specifically, 18 of the 478 convictions
Annual Accounting of Drug                                           reported by the IRS actually occurred prior to the
Control Funds, dated                                                FY 2008 measure. Similarly, 3 of the 827 ONDCP-related
April 18, 2003.                                                     investigations reported as completed in FY 2008 were
                                                                    actually completed prior to FY 2008. Finally, 18 cases the
                                                                    IRS reported as recommended for prosecution, but
                                                                    ultimately resulted in acquittal or dismissal, occurred prior
                                                                    to FY 2008. Complete and reliable financial and
                                                                    performance information is critical to the IRS’s ability to
                                                                    accurately report on the results of its operations to both
                                                                    internal and external stakeholders, including taxpayers.




          TIGTA Semiannual Report to Congress                                                                                71
          October 1, 2008 – March 31, 2009
72   TIGTA Semiannual Report to Congress
        October 1, 2008 – March 31, 2009
                         APPENDIX IV
                   SECTION 1203 STANDARDS
In general, the Commissioner of Internal Revenue shall terminate the employment of any IRS employee if
there is a final administrative or judicial determination that, in the performance of official duties, such
employee committed any misconduct violations outlined below. Such termination shall be a removal for
cause on charges of misconduct.
Misconduct violations include:

    •   Willfully failing to obtain the required approval signatures on documents authorizing the seizure of a
        taxpayer’s home, personal belongings, or business assets;
    •   Providing a false statement under oath with respect to a material matter involving a taxpayer or
        taxpayer representative;
    •   Violating, with respect to a taxpayer, taxpayer representative, or other employee of the IRS, any right
        under the Constitution of the United States, or any civil right established under Title VI or VII of the
        Civil Rights Act of 1964; Title IX of the Education Amendments of 1972; Age Discrimination in
        Employment Act of 1967; Age Discrimination Act of 1975; Section 501 or 504 of the Rehabilitation
        Act of 1973; or Title I of the Americans with Disabilities Act of 1990;
    •   Falsifying or destroying documents to conceal mistakes made by any employee with respect to
        a matter involving a taxpayer or taxpayer representative;
    •   Committing assault or battery on a taxpayer, taxpayer representative, or other employee of the
        IRS, but only if there is a criminal conviction or a final judgment by a court in a civil case,
        with respect to the assault or battery;
    •   Violating the Internal Revenue Code of 1986, Treasury regulations, or policies of the IRS (including
        the Internal Revenue Manual) for the purpose of retaliating against, or harassing a taxpayer, taxpayer
        representative, or other employee of the IRS;
    •   Willfully misusing provisions of Section 6103 of the Internal Revenue Code of 1986 for the purpose
        of concealing information from a congressional inquiry;
    •   Willfully failing to file any return of tax required under the Internal Revenue Code of 1986 on or
        before the date prescribed therefore (including any extensions), unless such failure is due to
        reasonable cause and not to willful neglect;
    •   Willfully understating Federal tax liability, unless such understatement is due to reasonable cause and
        not to willful neglect; and
    •   Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the misconduct
violations outlined above. The exercise of this authority shall be at the sole discretion of the
Commissioner and may not be delegated to any other officer. The Commissioner, in his/her sole
discretion, may establish a procedure that will be used to determine whether an individual should be
referred to the Commissioner for determination. Any mitigation determination by the Commissioner
in these matters may not be appealed in any administrative or judicial proceeding.


        TIGTA Semiannual Report to Congress                                                                   73
        October 1, 2008 – March 31, 2009
74   TIGTA Semiannual Report to Congress
        October 1, 2008 – March 31, 2009
                       APPENDIX V
                  DATA TABLES PROVIDED
                        BY THE IRS
The memorandum copied below is the IRS transmittal to TIGTA. The tables that follow the
memorandum contain information as provided by the IRS to TIGTA and consist of IRS
employee misconduct reports from the IRS Automated Labor and Employee Relations
Tracking System (ALERTS) for the period from October 1, 2008 through March 30, 2009.
Also, data concerning substantiated I.R.C. § 1203 allegations for the same period are
included. IRS management conducted inquiries into the cases reflected in these tables.




       TIGTA Semiannual Report to Congress                                            75
       October 1, 2008 – March 31, 2009
              Report of Employee Misconduct for the Period
                October 01, 2008 through March 31, 2009
                    Summary by Disposition Groups
                       (Table Provided by the IRS)
                                                                                  Employee
                                    TIGTA               Administrative              Tax            Background
        Disposition                                                                                                       Total
                                 Investigations            Cases                   Matter         Investigations
                                                                                   Cases

Removal                                          44                       71                 2                     3           120
Separation of Probationary
Employees                                         4                       87                 8                    17           116
Separation of Temporary
Employees                                                                 11                 8                     7            26
Resignation/Retirement                           57                      138               49                     22           266
Suspensions                                      83                      262               87                      9           441
Reprimands                                      117                      476              397                     32         1,022
Counseling                                                               434            1,030                     41         1,505
Alternative Discipline                           31                       81               24                      6           142
Clearance                                        87                      157               17                                  261
Closed Without Action                           172                      360              123                    134           789
Closed Without Action
(Caution Statement)                             188                      197              121                    115           621
Forwarded to TIGTA                                                          9                                                     9

No Action on Appeal                                                         1                1                                    2
Suspended – Waiting
Supplemental                                      2                                                                               2
Termination for
Abandonment of Position                                                   24                                                    24
Termination for Other
Than Job Abandonment                                                      13                                       1            14
Case Suspended Pending
Employee Return To Duty                           2                         4                6                     1            13
Prosecution Pending for
TIGTA ROI’s                                      15                                                                             15

Total                                           802                    2,325            1,873                    388         5,388

Source: Automated Labor and Employee Relations Tracking System (ALERTS) This report is being produced in accordance with 26 USC
§ 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-01, January 14, 1999 Extract Date: Thursday, April 02, 2009 Report ID = T1R3a




  76                                                                            TIGTA Semiannual Report to Congress
                                                                                   October 1, 2008 – March 31, 2009
             Report of Employee Misconduct for the Period
               October 01, 2008 through March 31, 2009
                          National Summary
                      (Table provided by the IRS)


                                                                                   Cases Closed
                                                Conduct
                           Opening                                                                                         Closing
     Case Type                                   Cases                                                     Non-
                          Inventory                                Conduct                                                Inventory
                                                Received                             Duplicates          Conduct
                                                                    Issues
                                                                                                          Issues

    TIGTA
    Investigations
    ROI1                              523                 738             (802)                  (1)               (0)              458
    Administrative
    Case2                             985               2,199           (2,325)                 (26)               (9)              824
    Employee Tax
    Compliance
    Case3                             512               1,994           (1,873)                 (15)               (0)              618
    Background
    Investigations4                   229                 359             (388)                  (3)               (1)              196

    Total                          2,249               5,290           (5,388)                 (45)              (10)             2,096

Source: Automated Labor and Employee Relations Tracking System (ALERTS)

This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-
01, January 14, 1999

Extract Date: Thursday, April 02, 2009                Report ID = T1R1




1
  TIGTA Investigations - Any matter involving an employee in which TIGTA conducted an investigation into alleged misconduct and
referred a Report of Investigation (ROI) to IRS for appropriate action.
2
  Administrative Case - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
3
  Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance program which becomes a
matter of official interest.
4
  Background Investigation - Any matter involving an NBIC investigation into an employee’s background that is referred to management for
appropriate action.




            TIGTA Semiannual Report to Congress                                                                                     77
            October 1, 2008 – March 31, 2009
              Summary of Substantiated I.R.C. § 1203 Allegations
                    Recorded in ALERTS for the Period
                 October 01, 2008 through March 31, 2009
                        (Table provided by the IRS)


                                                                                        Removed                                  In
     § 1203                                     Resigned/           Probation                               Penalty
                            Removals1                                                   On Other                              Personnel       Total
    Violation                                    Retired           Separation                              Mitigated1
                                                                                        Grounds                                Process

 Seizure Without
 Approval                                 0                   0                   0                  0                    0               0       0
 False Statement
 Under Oath                               0                   0                   0                  0                    0               0       0
 Constitutional &
 Civil Rights
 Issues                                   0                   0                   1                  0                    0               0       1
 Falsifying or
 Destroying
 Records                                  1                   0                   0                  0                    0               0       1
 Assault or
 Battery                                  0                   0                   0                  0                    0               0       0
 Retaliate or
 Harass                                   0                   0                   0                  0                    0               0       0
 Misuse of § 6103
                                          0                   0                   0                  0                    0               0       0
 Failure to File
 Federal Tax
 Return                                   1                   5                   2                  4                   26           23         61
 Understatement
 of Federal Tax
 Liability                                3                   4                   0                  2                   29           16         54
 Threat to Audit
 for Personal
 Gain                                     0                   0                   0                  0                    0               0       0

 Totals                                   5                   9                  3                   6                   55          39         117
Source: Automated Labor and Employee Relations Tracking System (ALERTS) and § 1203 Review Board
records.
Extract Date: Thursday, April 02, 2009




    1
        The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third-party appeal.


         78                                                                            TIGTA Semiannual Report to Congress
                                                                                          October 1, 2008 – March 31, 2009
                                 List of Abbreviations
ACS                           Automated Collection System

ACTC                          Additional Child Tax Credit

ALERTS                        Automated Labor and Employee Relations Tracking System

ARRA 2009                     American Recovery and Reinvestment Act of 2009

CADE                          Customer Account Data Engine

CI                            Criminal Investigation Division

DOJ                           Department of Justice

EITC                          Earned Income Tax Credit

FBI                           Federal Bureau of Investigation

FTP                           Failure to Pay

FY                            Fiscal Year

GPRA                          Government Performance and Results Act

I&E                           Inspections and Evaluations

I.R.C.                        Internal Revenue Code

IRM                           Internal Revenue Manual

IRS                           Internal Revenue Service

ITIN                          Individual Taxpayer Identification Number

MeF                           Modernized e-File

M-TRDB                        Modernized Tax Return Database

MV&S                          Modernization Vision and Strategy

OA                            Office of Audit


         TIGTA Semiannual Report to Congress                                           79
         October 1, 2008 – March 31, 2009
OI         Office of Investigations

OPR        Office of Professional Responsibility

ONDCP      Office of National Drug Control Policy

RCT        Religious Compensatory Time

RGI        Robert Grieve, International

RRA 98     IRS Restructuring and Reform Act of 1998

SAC        Special Agent in Charge

SED        Strategic Enforcement Division

SIG TARP   Special Inspector General for the Troubled Asset Relief
           Program

SSN        Social Security Number

TAC        Taxpayer Assistance Center

TIGTA      Treasury Inspector General for Tax Administration

TY         Tax Year

UNAX       Unauthorized Accesses

USC        United States Code




 80                                   TIGTA Semiannual Report to Congress
                                         October 1, 2008 – March 31, 2009
